APPENDIX

App. i
TABLE OF APPENDICES
Appendix A: Opinion, Thompson v.
Marietta Education Association, et al.,
(6th Cir. Aug. 25, 2020) ............................... App. 1
Appendix B: Judgment, Thompson v.
Marietta Education Association, et al.,
(6th Cir. Aug. 25, 2020) ............................. App. 12
Appendix C: Opinion and Order,
Thompson v. Marietta Education
Association, et al.,
(S.D. Ohio Nov. 26, 2019) .......................... App. 14
Appendix D: Judgment, Thompson v.
Marietta Education Association, et al.,
(S.D. Ohio Nov. 26, 2019) .......................... App. 35
Appendix E: Stipulation of Undisputed
Facts, Thompson v. Marietta
Education Association, et al.,
(S.D. Ohio, Mar. 4, 2019) ........................... App. 37
Appendix F: Order Denying Motion for
Preliminary Injunction, Thompson v.
Marietta Education Association, et al.,
(S.D. Ohio Jan. 14, 2019) ........................... App. 43

App. ii
Appendix G: Declaration of Jade
Thompson, Thompson v. Marietta
Education Association, et al.,
(S.D. Ohio July 23, 2018) ........................... App. 69
Appendix H: Complaint, Thompson v.
Marietta Education Association, et al.,
(S.D. Ohio June 27, 2018) .......................... App. 73
Appendix I: Ohio Statutes
(2018) ......................................................... App. 99
Appendix J: Agreement Between The
Marietta Board of Education and the
Marietta Education Association
[Excerpts] (2016–2018)............................ App. 135

App. 1
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
___________________
No. 19-4217
___________________
JADE THOMPSON,
Plaintiff - Appellant,
v.
MARIETTA EDUCATION ASSOCIATION; MARIETTA CITY SCHOOL DISTRICT BOARD OF EDUCATION
Defendants - Appellees.
_________________________________________________
Appeal from the U.S. District Court for the for the
Southern District of Ohio at Columbus.
No. 2:18-cv-00628—Michael H. Watson, District
Judge.
________________________________________________
Argued: August 5, 2020
Decided and Filed: August 25, 2020
Before GIBBONS, GRIFFIN, and THAPAR, Circuit
Judges.

App. 2

Counsel
ARGUED: Robert Alt, THE BUCKEYE INSTITUTE, Columbus, Ohio, for Appellant. Scott A. Kronland, ALTSHULER BERZON LLP, San Francisco,
California, for Appellee Marietta Education Association. Bryan M. Smeenk, BRICKER & ECKLER LLP,
Columbus, Ohio, for Appellee Marietta City School
District Board of Education. ON BRIEF: Robert Alt,
THE BUCKEYE INSTITUTE, Columbus, Ohio, Andrew M. Grossman, Patrick T. Lewis, BAKERHOSTETLER LLP, Washington, D.C., for Appellant.
Scott A. Kronland, P. Casey Pitts, ALTSHULER
BERZON LLP, San Francisco, California, Eben O.
McNair, IV, Timothy Gallagher, SCHWARZWALD
MCNAIR & FUSCO LLP, Cleveland, Ohio, for Appellee Marietta Education Association. Bryan M.
Smeenk, Nicole M. Donovsky, BRICKER & ECKLER
LLP, Columbus, Ohio, for Appellee Marietta City
School District Board of Education.
OPINION

THAPAR, Circuit Judge. By signing on the dotted line, public employees accept the government
as their employer. In Ohio, the law requires them
to also accept a union as their exclusive bargaining

App. 3
representative. It’s a take-it-or-leave-it system—either agree to exclusive representation, which is
codified in state law, or find a different job. This
take-it-or-leave-it system is in direct conflict with
the principles enunciated in Janus v. AFSCME,
138 S. Ct. 2448 (2018). But when the Supreme
Court decided Janus, it left on the books Minnesota
State Board for Community Colleges v. Knight, 465
U.S. 271 (1984). And because Knight directly controls the outcome of this case, we affirm the district
court’s decision upholding the challenged Ohio law.
I.
Marietta is a small town in southeast Ohio that
sits on the banks of the Ohio and Muskingum Rivers. The Marietta Board of Education governs the
town’s public schools. And the Marietta Education
Association, a teacher’s union, serves as the exclusive bargaining representative for the school district’s employees.
Jade Thompson is a Spanish teacher at Marietta High School. After the Supreme Court’s decision in Janus, Thompson sued the Marietta Education Association and the Marietta Board of Education, arguing that Ohio’s scheme of exclusive public-sector union representation violates the First
Amendment.

App. 4
Under Ohio law, a union may become the exclusive bargaining representative for all public employees in a bargaining unit. To become an exclusive representative, the union must submit proof
that a majority of the bargaining unit’s members
wish to be represented by the union. Ohio Rev.
Code § 4117.05(A)(1). Once a union has done so,
public employers are required to collectively bargain with it. Id. § 4117.04. And they are prohibited
from bargaining with anyone else. Id. This includes
both individual employees and other labor organizations.
Ohio law sets a broad scope for collective-bargaining negotiations. Public employers must bargain over “[a]ll matters pertaining to wages, hours,
or terms and other conditions of employment” as
well as over any “existing provision of a collective
bargaining agreement.” Id.§ 4117.08(A). And public employers may bargain over almost all other
topics. Id. § 4117.08(C). This latter category includes “the functions and programs of the public
employer”; the employer’s “overall budget” and “organizational structure”; the methods “by which
governmental operations are to be conducted”; and
even “the mission of the public employer as a governmental unit.” Id.
Thompson is not a member of the Marietta Education Association. She objects to its policies and
to any association with it. But because the union

App. 5
has been designated as her bargaining unit’s “exclusive representative,” the union has a statutory
right to represent her “for the purposes of collective
bargaining.” Id. § 4117.05(A). So while Thompson
believes layoffs should occur based largely on merit
rather than seniority, the union advocates to the
contrary. And while Thompson believes teachers’
benefits should be cut to save academic programs,
the union takes a different view. These are just a
few of the many issues on which Thompson and the
union disagree. Indeed, when Thompson’s late husband—Representative Andy Thompson— ran for
the Ohio General Assembly, the union published
advertisements and sent emails to teachers at
Marietta High School opposing his candidacy.
Two years ago, Thompson filed this lawsuit, arguing that Ohio’s system of exclusive public-sector
bargaining violates her First Amendment rights.
Both parties soon moved for summary judgment.
The district court held that Thompson’s challenge
was foreclosed by Knight and thus granted summary judgment to the defendants. This appeal followed.
II.
Thompson raises two challenges to Ohio’s system of exclusive representation: (1) that it violates
her rights to be free from compelled speech and as-

App. 6
sociation, and (2) that it violates her right to meaningfully communicate with the government. We
agree with the district court that both arguments
are foreclosed by Supreme Court precedent.
A.
Thompson’s first claim is that Ohio law impermissibly allows the Marietta Education Association to speak on her behalf during collective-bargaining sessions, and that this amounts to compelled speech and association in violation of the
First Amendment. See Ohio Rev. Code §§
4117.05(A), 4117.11(B)(6).
The First Amendment protects “both the right
to speak freely and the right to refrain from speaking at all.” Wooley v. Maynard, 430 U.S. 705, 714
(1977). Likewise, “[f]reedom of association . . .
plainly presupposes a freedom not to associate.”
Roberts v. U.S. Jaycees, 468 U.S. 609, 623 (1984).
These rights capture the more basic truth that
“[f]orcing free and independent individuals to endorse”—either implicitly or explicitly—“ideas they
find objectionable is always demeaning.” Janus,
138 S. Ct. at 2464. The Supreme Court has thus
explained that “designating a union as the exclusive representative of nonmembers substantially
restricts the nonmembers’ rights.” Id. at 2469. And
the Court has deemed exclusive public- sector bar-

App. 7
gaining “a significant impingement on associational freedoms that would not be tolerated in
other contexts.” Id. at 2478.
Given the Supreme Court’s language, one might
think that Thompson should prevail. Yet Supreme
Court precedent says otherwise. And lower courts
must follow Supreme Court precedent. See Agostini
v. Felton, 521 U.S. 203, 237 (1997).
The primary precedent blocking Thompson’s
way is Knight. There, a group of non-union community college instructors challenged Minnesota’s collective-bargaining statute. They objected to the
State’s recognition of an exclusive representative
to speak for all employees at “meet and confer” sessions. These sessions concerned subjects outside
the scope of mandatory collective bargaining. See
465 U.S. at 274–78. But the Supreme Court rejected the challenge. It held that Minnesota had “in
no way restrained [the instructors’] freedom to
speak . . . or their freedom to associate or not to
associate with whom they please.” Id. at 288. To
the contrary, the Court held that the instructors’
First Amendment rights were not unduly infringed
because they remained “free to form whatever advocacy groups they like” and were “not required to
become members of [the union].” Id. at 289.
Knight controls here. If allowing exclusive representatives to speak for all employees at “meet

App. 8
and confer” sessions does not violate the First
Amendment, we see no basis for concluding that
the result should be different where the union engages in more traditional collective- bargaining activities. It appears that every other circuit to address the issue has agreed. See, e.g., Reisman v. Associated Faculties of Univ. of Maine, 939 F.3d 409
(1st Cir. 2019); Mentele v. Inslee, 916 F.3d 783 (9th
Cir. 2019); Bierman v. Dayton, 900 F.3d 570 (8th
Cir. 2018); Hill v. Serv. Emps. Int’l Union, 850 F.3d
861 (7th Cir. 2017); Jarvis v. Cuomo, 660 F. App’x
72 (2d Cir. 2016) (summary order).
Thompson responds, arguing that Knight did
not involve a compelled-representation challenge.
But in Knight, the Court framed the question presented in broad terms: whether the “restriction on
participation in the nonmandatory-subject exchange process violates the constitutional rights of
professional employees within the bargaining unit
who are not members of the exclusive representative and who may disagree with its views.” 465 U.S.
at 273. Even assuming plaintiff’s compelled-representation theory is technically distinguishable,
such a cramped reading of Knight would functionally overrule the decision. And that is something
lower court judges have no authority to do.
To be sure, Knight’s reasoning conflicts with the
reasoning in Janus. But the Supreme Court did not

App. 9
overrule Knight in Janus. And when an earlier Supreme Court decision “has direct application in a
case, yet appears to rest on reasons rejected in
some other line of decisions, the Court of Appeals
should follow the case which directly controls, leaving to [the Supreme] Court the prerogative of overruling its own decisions.” Rodriguez de Quijas v.
Shearson/Am. Exp., Inc., 490 U.S. 477, 484 (1989).
We do so here.
B.
Thompson’s second claim fares no better. She
argues that Ohio’s system of exclusive representation unconstitutionally burdens her First Amendment right to engage with the government through
speech, association, and petition. Thompson’s theory seems to be that by allowing the Marietta Education Association to serve as her exclusive representative, Ohio unconstitutionally tilts the playing
field against her speech.
But this argument conflicts with two Supreme
Court decisions. First, we consider Smith v. Arkansas State Highway Employees, Local 1315, 441 U.S.
463 (1979) (per curiam). There, the Court held that
the First Amendment imposes no “affirmative obligation on the government to listen, to respond[,] or
. . . [to] bargain.” Id. at 465. And since the government has no obligation to bargain with Thompson,
it is difficult to see how the government’s decision
to bargain with someone else violates her rights.

App. 10
Second, in Knight, the Supreme Court recognized that it was “doubtless true that the unique
status of the exclusive representative . . . amplifies
its voice in the policymaking process.” 465 U.S. at
288. But amplification “is inherent in government’s
freedom to choose its advisers.” Id. And a “person’s
right to speak is not infringed when government
simply ignores that person while listening to others.” Id. Thus, Knight again forecloses Thompson’s
claim.*
***
This case presents First Amendment questions
of considerable importance. But they are controlled

* The district court also held that Thompson waived this second claim during an earlier stage of the proceedings. But we see
things differently. To be sure, Thompson did not press this theory while seeking a preliminary injunction. And some of her arguments during the preliminary injunction hearing implicitly
contradict the theory. Yet our review of the record does not reveal an “intentional relinquishment or abandonment of a known
right.” United States v. Olano, 507 U.S. 725, 733 (1993). To the
contrary, Thompson asserted the theory in her complaint,
pressed it in her motion for summary judgment, and continues
to pursue it on appeal. Likewise, at every stage the defendants
have had a full opportunity to respond to this theory and have
in fact done so. See United States v. Dillard, 438 F.3d 675, 682
n.1 (6th Cir. 2006) (finding no waiver where the opposing party
“had a full and fair opportunity to consider and address the issue”). Fortunately, the district court addressed the merits of
Thompson’s claim in the alternative. And since both parties
fully briefed Thompson’s theory in the district court and on appeal, there has been no impediment to our consideration of the
issue.

App. 11
by a fair reading of the Supreme Court’s precedents. We therefore affirm the district court’s order
granting summary judgment for the defendants.

App. 12
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
___________________
No. 19-4217
___________________
JADE THOMPSON,
Plaintiff - Appellant,
v.
MARIETTA EDUCATION ASSOCIATION; MARIETTA CITY SCHOOL DISTRICT BOARD OF EDUCATION
Defendants - Appellees.
FILED
August 25, 2020
Deborah S. Hunt, Clerk
_________________________________________________
Before GIBBONS, GRIFFIN, and THAPAR, Circuit
Judges.
Judgment
On Appeal from the U.S. District Court for the for
the Southern District of Ohio at Columbus.
THIS CAUSE was heard on the record from the
district court and was argued by counsel.
IN CONSIDERATION THEREOF, it is ORDERED that the judgment of the district court is
AFFIRMED.

App. 13
ENTERED BY ORDER OF THE COURT
Deborah S. Hunt
Deborah S. Hunt, Clerk

App. 14
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
Jade Thompson,
Plaintiff
v.
Marietta Education Association, et al.,
Defendants
Case No. 2:18-cv-628
Judge Michael H. Watson
Magistrate Judge Vascura
OPINION AND ORDER
Jade Thompson (“Plaintiff’) sues the Marietta Education Association (“the Union”) and Marietta Board
of Education (‘1the Board”) (collectively, “Defendants”) under 42 U.S.C. § 1983. She argues that Ohio
Revised Code §§ 4117.04-05 are unconstitutional. The
Court denied Plaintiff’s motion for a preliminary injunction, Op. and Order, ECF No. 52, and Plaintiff,
the Union, and the Board now all move for summary
judgment. ECF Nos. 56, 57, 58. For the following reasons, the Court GRANTS the Union’s and the Board’s
motions and DENIES Plaintiff’s motion.
I. FACTS
The pertinent facts of this case were recited in the
Court’s prior Opinion and Order, ECF No. 52. The
Court adds, however, the following relevant facts.

App. 15
The Collective Bargaining Agreement (“Agreement”) that was in effect at the time this lawsuit was
filed has been replaced by a successor Collective Bargaining Agreement (“Successor Agreement”). Both
the Agreement and the Successor Agreement are governed by the challenged portions of Ohio law. Stipulated Facts ¶ 12, ECF No. 59. No party suggests the
Successor Agreement varies from the Agreement in
any way material to this lawsuit. See id. ¶14.
Although Plaintiff at times asserts that the Board
appoints or appointed the Union as Plaintiff’s
speaker, agent, or representative, see, e.g., Pl. Mot.
Summ. J. 2, ECF No. 58-1, that is not accurate. Rather, once an entity has been designated an exclusive
representative, pursuant to Ohio Revised Code
§ 4117.05, Ohio law requires public employers like the
Board to “extend to [that] exclusive representative
…the right to represent exclusively the employees in
the appropriate bargaining unit….” O.R.C. §
4117.04(A). Thus, “[p]ursuant to the provisions of the
Act governing the designation of employee representatives, the Board has recognized the Union as the majority-designated exclusive representative of a bargaining unit of certain public employees of the Board
for the purposes of collective bargaining under the
Act,” Stipulated Facts ¶ 9, ECF No. 59 (emphasis
added), it did not appoint the Union as the exclusive
representative.
Additionally, Plaintiff’s contention that the Union
speaks for her is inaccurate. As a matter of law, Ohio

App. 16
requires the Board to recognize the Union as the bargaining unit’s representative for purposes of collective
bargaining. O.R.C. § 4117.04(A), (B). The Agreement
also states that the Board recognized the Union as the
bargaining agent for the members of the bargaining
unit. CBA § 1.01, ECF No. 1-1. Thus, the Court concluded in its prior Opinion and Order that “although
the Union represents Plaintiff, and in that representation ‘speaks for her,’ realistically, it is speaking for
the bargaining unit members as a collective rather
than purporting to espouse specific views for any individual bargaining unit member.” Op. and Order 19,
ECF No. 52; cf. Reisman v. Associated Faculties of
Univ. of Maine, 939 F.3d 409, 412–13 (1st Cir. 2019)
(concluding same when interpreting similar statute).
Plaintiff’s argument that Ohio law or the Agreement
should be interpreted as meaning that the Union’s
speech is attributable to each individual bargaining
unit member (as opposed to the bargaining unit as a
collective), or that they should be interpreted as appointing the Union as Plaintiff’s personal agent or
representative (as opposed to the bargaining unit’s
agent or representative), is unpersuasive and does not
change the Court’s prior legal conclusion. And, as a
factual matter, Plaintiff has not offered evidence that
anyone perceives the Union’s speech as attributable
to her as an individual. On the other hand, since the
Court issued its Opinion and Order denying Plaintiff’s
motion for a preliminary injunction, the Board has
submitted additional evidence showing that the Superintendent of the Marietta City School District
“make[s] no assumption or conclusion that the Union

App. 17
speaks on behalf of all teachers, or that all teachers
agree with the position(s) of the Union.” Hampton
Decl. ¶11, ECF No. 56-1.
Because the parties dispute only the law or legal
significance of certain facts, and there is no genuine
dispute of any material fact,1 this case is prime for
resolution via summary judgment.
II. STANDARD OF REVIEW
Summary judgment is appropriate “if the movant
shows that there is no genuine dispute as to any material fact and the movant is entitled to judgment as
a matter of law.” FED. R. CIV. P. 56(a). The movant
has the burden of establishing that there are no genuine issues of material fact, which may be accomplished by demonstrating that the nonmoving party
lacks evidence to support an essential element of its
case. Celotex Corp. v. Catrett, 477 U.S. 317; 322–23
(1986); Barnhart v. Pickrel, Schaeffer & Ebeling Co.,
12 F.3d 1382, 1388–89 (6th Cir. 1993). To avoid summary judgment, the nonmovant “must do more than
simply show that there is some metaphysical doubt as
1 The Court's legal conclusion that Plaintiff's claims are precluded by Knight renders it unnecessary to resolve the parties'
disputes over the accuracy of certain assertions contained in
Plaintiff's statement of facts. By way of example and not limitation, the parties dispute the accuracy of Plaintiffs statement
that the Union "is entitled to participate in the adjustment process" during the adjustment of a grievance or Plaintiff's explanation of the Union's role in teacher evaluation procedures. See
Pl. Mot. Summ. J. 3–4 (fact section), ECF No. 58-1; Bd. Resp. 5–
7, ECF No. 63; Union Resp. 1–2, ECF No. 64. In any event, they
are not material facts.

App. 18
to the material facts.” Matsushita Elec. Indus. Co. v.
Zenith Radio Corp., 475 U.S. 574, 586 (1986); accord
Moore v. Philip Morris Cos., 8 F.3d 335, 340 (6th Cir.
1993). “[S]ummary judgment will not lie if the dispute
about a material fact is ‘genuine,’ that is, if the evidence is such that a reasonable jury could return a
verdict for the nonmoving party.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986).
In evaluating a motion for summary judgment, the
evidence must be viewed in the light most favorable
to the nonmoving party. Adickes v. S.H. Kress & Co.,
398 U.S. 144, 158–59 (1970); see Reeves v. Sanderson
Plumbing Prods., Inc., 530 U.S. 133, 150 (2000) (stating that the court must draw all reasonable inferences
in favor of the nonmoving party and must refrain from
making credibility determinations or weighing evidence). Furthermore, the existence of a mere scintilla
of evidence in support of the nonmoving party’s position will not be sufficient; there must be evidence on
which the jury reasonably could find for the nonmoving party. Anderson, 477 U.S. at 251; see Copeland v.
Machulis, 57 F.3d 476, 479 (6th Cir. 1995); see also
Matsushita, 475 U.S. at 587–88 (finding reliance upon
mere allegations, conjecture, or implausible inferences to be insufficient to survive summary judgment).
Here, the parties have filed cross-motions for summary judgment. Each party, as a movant for summary judgment, bears the burden of establishing that
no genuine issue of material fact exists and that he or
she is entitled to a judgment as a matter of law. The

App. 19
fact that one party fails to satisfy that burden on his
or her own Rule 56 motion does not automatically indicate that the opposing party or parties has satisfied
the burden and should be granted summary judgment
on the other motion. In reviewing cross-motions for
summary judgment, courts should “evaluate each motion on its own merits and view all facts and inferences in the light most favorable to the non-moving
party.” Wiley v. United States, 20 F.3d 222, 224 (6th
Cir. 1994). “The filing of cross-motions for summary
judgment does not necessarily mean that the parties
consent to resolution of the case on the existing record
or that the district court is free to treat the case as if
it was submitted for final resolution on a stipulated
record.” Taft Broad. Co. v. United States, 929 F.2d
240,248 (6th Cir. 1991) (quoting John v. State of La.
(Bd. of Trs. for State Colls. & Univs.), 757 F.2d 698,
705 (5th Cir. 1985)). The standard of review for crossmotions for summary judgment does not differ from
the standard applied when a motion is filed by one
party to the litigation. Taft Broad., 929 F.2d at 248.
III. ANALYSIS
The Court denied Plaintiff’s request for a preliminary injunction primarily because it found that she
was unlikely to succeed on the merits of her claim. Op.
and Order 6–21, ECF No. 52. Specifically, the Court
concluded that Plaintiff’s claims were likely foreclosed by the Supreme Court’s opinion in Minnesota
Bd. for Community Colleges v. Knight, 465 U.S. 271 ,
283 (1984).

App. 20
Upon thorough review of the summary judgment
briefing, the Court concludes that the parties have not
presented any factual issue in need of resolution. Further, nothing in the briefing undermines the Court’s
prior legal conclusion that Plaintiff’s compelled
speech and compelled association claims were likely
foreclosed by the Supreme Court’s decision in Knight.
Accordingly, the Court affirms the analysis contained
in its prior Opinion and Order, ECF No. 52, and now
conclusively finds that Plaintiffs claims are precluded
by Supreme Court precedent. There is no utility in repeating the Court’s entire analysis here and, instead,
the Court adopts that analysis herein. Notwithstanding that, the Court offers the following additional observations.
A. Plaintiff Waived her Argument that Ohio Law
Restricts her Right to Speak, Associate, and Petition
the Government (Compl. ¶ 116, ECF No. 1).
In her motion for summary judgment, Plaintiff argues that Ohio’s “exclusive-representation scheme
burdens the First Amendment rights of the Plaintiff,
Jade Thompson, and other non-members by binding
the Board indefinitely to negotiate with the Union to
the exclusion of non-members.” Pl. Mot. Summ. J. 2,
ECF No. 58-1; see also id. at 13–17. Plaintiff states
that this argument “was not presented at the preliminary injunction stage, [but] it is pleaded in her Complaint and remains part of this case.” Pl. Mot. Summ.
J. 12, ECF No. 58-1 (record citations omitted).
But Plaintiff did not merely fail to address this argument at the preliminary injunction stage or fail to

App. 21
support it with sufficient evidence to warrant the
grant of a preliminary injunction.2 Rather, the Court
found that Plaintiff affirmatively waived her argument that Ohio Revised Code§ 4117.04(A) violates her
right to speak, associate, and petition the government. Op. and Order 5, ECF No. 52; id. at n.8. Indeed,
the instances of waiver are numerous:
• Mot. Prelim. In. 8, ECF No. 15-1 (conceding that
“the government has no obligation to listen to the
views of any such person or organization.” (citing
Knight, 465 U.S. at 283));

2 Thus, Plaintiff's affirmative waiver of the argument and
express advocacy for relief that is entirely inconsistent with the
argument she attempts to raise now renders the cases Plaintiff
cites inapposite. See United States v. Certain Land Situated in
City of Detroit, 76 F.3d 380,380 n.1 (6th Cir. Jan. 23, 1996)
("Failure to present…evidence in support of…request for a preliminary injunction does not amount to a waiver of…argument
at a later stage in the litigation."); William G. Wilcox, D.O., P.C.
Emp. Defined Ben. Pension Trust v. United States, 888 F.2d
1111 (6th Cir. 1989) (finding district court erred in granting
summary judgment based solely on its conclusion that its earlier
denial of motion for preliminary injunction constituted the law
of the case vis-a-vis the merits of the lawsuit); Certified Restoration Dry Cleaning Network, L.L.C. v. Tenke Corp., 511 F.3d
535 (6th Cir. 2007) (finding district court erred in concluding
plaintiff was unlikely to have granted a preliminary injunction
based on the evidence presented). Although she referred only to
her "motion" in several of the quoted examples above, when read
in the proper context, it is clear that Plaintiff was arguing that
(notwithstanding her Complaint) her position of this case was
one in which she did not challenge exclusive representation and
limited her challenge solely to the designation of that exclusive
representative as her "representative" who spoke ''for her."

App. 22
• Id. at 11 (representing that Plaintiff’s “claim is
not that she or an organization with which she
chooses to associate has a right to participate in a bargaining session, but that she cannot be compelled to
associate with the Union through its advocacy as her
representative or agent.”);
• Reply to Mot. Prelim. lnj. 1–2, ECF No. 35
(“Knight…rejected a claim to the right by non-union
members to be heard by the government, which is not
the right this motion seeks to vindicate.”);
• Id. at 2 (stating the Union “treats this motion as
a request to end collective bargaining or open it up to
multiple competing unions, but that is not what
[Plaintiff] seeks. She simply requests that the Union
stop speaking on her behalf as her ‘representative.’
The Union may continue speaking, and it may continue negotiating terms and conditions of employment and other policy concessions with the board.
Likewise, the Board may continue to negotiate with
the Union the terms and conditions of employment
that it offers to its employees and continue to apply
the terms of its collective bargaining agreement to all
bargaining-unit members.” (emphasis added));
• Id. at 11 (“She does not request to be heard or,
for that matter, for the Union not to be heard.”);
• Id. at 12 (“[G]ranting the relief here will…not
prevent the Union from continuing to bargain with
the Board or require the Board to bargain with [Plaintiff].”);

App. 23
• Id. at 13 (“[Plaintiff] does not challenge the
State’s policy of negotiating terms of employment and
other matters with an organization that has won the
majority support of employees-the State, after all, is
free to discuss matters of policy with whomever it
pleases.”);
• Id. at 14 (“[Plaintiff] is not asking for the end of
majority rule in the workplace and a court-imposed
system of competing unions or multiple collective-bargaining agreements.”);
• Id. at 14–15 (A preliminary injunction “would
not prevent the state from applying a single set of
terms to all its employees, or from engaging in collective bargaining with the Union, or from listening to
the Union at collective-bargaining sessions. If would
not compel the State to listen to [Plaintiff] and other
non-members. Under Knight, the state has no obligation to give [Plaintiff] an equal say in policy, and nothing prevents the state from applying the terms and
conditions of employment it arrives at with the Union
to all its employees….”);
• Id. at 15 (“[T]he Board can recognize the Union
as speaking for its own members, even while applying
terms arrived at through negotiation with the Union
to all public employees within a bargaining unit-just
as it does today.”);
• Id. at 18 (“Such an injunction would not affect
wages or benefits under the Agreement, the Union’s
right to bargain over terms and conditions governing

App. 24
all bargaining-unit members (including [Plaintiff]), or
the Board’s right to negotiate with a single union.”);
• Tr. Prelim. lnj. Hrg. 4–5, ECF No. 43 (‘‘I’d like to
begin by clarifying what it is that we’re challenging
and what it is that we’re not. We have no objection
to Ohio law recognizing a labor union as an exclusive bargaining partner of a school board or
school district. That’s fine. We’re not claiming that
a school board has to negotiate with other labor unions or other organizations. We’re not even claiming
that [Plaintiff] has a right to be heard by the school
board. Maybe it should do that but we recognize that
the First Amendment doesn’t require that. What
we’re challenging is the appointment of the union as
her representative.” (emphasis added));
• Id. at 8 (“But again, we’re not challenging the
exclusive aspect of the union’s role here. What we’re
challenging is its representational role.”);
• Id. at 16 (“[Plaintiff] is not claiming that she has
any right to appear at collective bargaining sessions
or that she has a right to participate at every single
grievance proceeding. All she’s saying is that she
doesn’t want the board to recognize the union as
speaking for her.”);
• Id. at 33–34 (“We are not seeking to open up any
additional avenues for [Plaintiff] to have her say ....
She has not claimed the right to be heard. She has not
claimed the right to participate in collective bargaining or anything of that sort.”);

App. 25
• Id. at 34 (“In our view, the labor union, as well
as the board, can largely continue as they’ve been going.”);
• Id. at 36–37 (“We’re not seeking to disrupt
the collective bargaining process….I haven’t understood my friends who identified any particular
thing that the union couldn’t do other than claiming
to speak for her that it is currently doing. In other
words, there’s this very broad argument on labor
peace and disruption and chaos and so on, but the
problem is, how do you connect the two?...Sure, if
there were multiple unions that might be a problem.
If maybe there wasn’t a union at all, that perhaps
could be a problem. Maybe the state has [a] legitimate
interest with respect to those things. But in terms of
the union not speaking for [Plaintiff], I haven’t heard
anything about how the union needs to speak for her.”
(emphasis added));
• Id. at 38 (“She doesn’t want those words put in
her mouth as opposed to any type of right of access or
right for her to participate in some type of proceeding
with the school board.”); and
• Id. (“[T]he injury to the defendants in this instance would be negligible. Again, I haven’t heard any
of that connection as to how this affects their operations....”).
Regardless of how Plaintiff frames the arguments
on summary judgment, her contention that the Union’s exclusive status burdens her rights to free

App. 26
speech, free association, and to petition the government is directly at odds with her repeated assertions
that her lawsuit does not challenge the Union’s right
to bargain exclusively with the State in setting the
terms of employment for all bargaining-unit members. Plaintiff has repeatedly taken the position that
she simply challenges the Union being deemed her
“agent” or “representative,” and therefore speaking
“on her behalf,” while it does so. As the Court found
earlier, see, e.g., Op. and Order 5, ECF No. 52, her
other arguments are therefore waived.
Alternatively, even if Plaintiff had not waived her
right to pursue those arguments, they are foreclosed
by Knight. See Knight. 465 U.S. at 280–90; see also id.
at 273–75 (despite Plaintiffs attempt to distinguish
Knight, the Minnesota scheme at issue there also involved a statutory limitation requiring the Board to
negotiate or confer only with the exclusive representative (if one was so selected)).3 Plaintiff asserts
Knight and this Court's prior Opinion and Order also explain why Plaintiff's argument that the Union should be deemed
to represent only bargaining unit members who are also Union
members must fail. If that were the case, Plaintiff and other
non-Union bargaining unit members would either be utterly unable to negotiate the terms of their employment (because they
were unrepresented during negotiations), or they would have to
have the corresponding right to participate in negotiations on
their own behalf, which right was found lacking in Knight. Permitting the Union to "represent" all bargaining unit members
(in the sense that negotiated-for terms and conditions apply
even to non-Union members), while preserving bargaining unit
members' ability to reject association with the Union (through
non-membership), and protecting that right through the requirement of fair representation, passes constitutional scrutiny.
3

App. 27
that, to the extent Knight precludes her arguments,
Knight should be overruled. However, she also
acknowledges this Court’s inability to overrule Supreme Court precedent. For that reason, Plaintiff
seeks to preserve for appeal her contention that
Knight should be overruled if it forecloses her arguments concerning the affirmative rights to speak, associate, and petition the government. Pl. Mot. Summ.
J. 16, ECF No. 58-1. Although the Court finds Plaintiff has waived those arguments and finds them precluded by Knight only in the alternative, in the event
the Sixth Circuit disagrees with this Court’s finding
on waiver, this Court acknowledges Plaintiffs preservation request.
B. The Court Gave Proper Deference to Knight.
The Court disagrees with Plaintiff’s contention
that the Court’s preliminary conclusion reads “a single sentence unnecessary to the decision [in Knight]
as having done so much work.” Pl. Mot. Summ. J. 8,
ECF No. 58-1 (quoting Ark. Game & Fish Comm’n v.
Such a system of exclusive representation is narrowly tailoredPlaintiff's argument would entirely undo exclusive representation or require Plaintiff to give up her job as a requirement of
her choice to go unrepresented. To the extent Plaintiff argues
that a more narrowly tailored scheme would be a system
wherein she remains bound by the terms and conditions bargained-for by the Union while her interests are wholly unrepresented in that bargaining process, the Supreme Court has suggested that such a scheme would raise "serious 'constitutional
questions."' Janus v. Am. Fed. of State, Cty., and Municipal
Emps., Council 31, 138 S. Ct. 2448, 2469 (2018) (internal citation omitted).

App. 28
United States, 568 U.S. 23, 35 (2012)). Unlike in the
cases Plaintiff cites, this Court did not take a “general
expression[]” from Knight and “transpose• [it] to
other facts.” Armour & Co. v. Wantock, 323 U.S. 126,
133 (1944). Rather, the scheme of exclusive representation at issue in Knight is materially indistinguishable from Ohio’s scheme. Moreover, this Court concludes that the same reasoning applied by the Supreme Court in Knight to decide the claims that were
advanced in that case-not merely a single sentence
unnecessary to the decision-also compels rejection of
the claims Plaintiff raises here. In fact, this Court
found that, while the exact claims Plaintiff raises here
were not raised in Knight, the claims raised in Knight
and those raised by Plaintiff “are two sides of the
same coin.” Op. and Order 16, ECF No. 52. That conclusion makes Knight’s reasoning equally applicable
to Plaintiff’s claims and keeps this Court’s interpretation of Knight “within reasonable bounds.” Wantock,
323 U.S. at 133.
C. Additional Case Law Supports the Court’s Conclusion.
The Court previously cited multiple cases that rejected, as foreclosed by Knight, the same claims Plaintiff makes here. See Op. and Order 8–9, 12–13, 15, 19,
ECF No. 52. The Court notes that, as of this time,
none of those cases have been reversed.
In fact, the district court opinion in Reisman v. Associated Faculties of the University of Maine, 356 F.
Supp. 3d 173 (D. Maine 2018), was subsequently affirmed by the United States Court of Appeals for the

App. 29
First Circuit. Reisman, 939 F.3d at 414 (finding Janus did not undermine prior circuit precedent holding
that Knight foreclosed such compelled speech and
compelled association claims). Similarly, the district
court opinion in Mentele v. lnslee, No. C15-5134- RBL,
2016 WL 3017713 (W.D. Wash. May 26, 2016), was
affirmed by the United States Court of Appeals for the
Ninth Circuit after the issuance of this Court’s prior
Opinion and Order. Mentele v. lnslee, 916 F.3d 783,
789 (9th Cir. 2019) (“[W]e apply Knight’s more directly applicable precedent, rather than relying on the
passage [Plaintiff] cites from Janus, and hold that
Washington’s authorization of an exclusive bargaining representative does not infringe [Plaintiff’s] First
Amendment rights.”). These subsequently issued circuit opinions lend further support to this Court’s conclusion.
Moreover, the Supreme Court has recently denied
petitions for certiorari in Bierman, 139 S. Ct. 2043,
and Mentele, 2019 WL 4921408, and those circuit decisions are therefore final.
Additionally, several other opinions have since
been issued that support this Court’s conclusion that
Knight forecloses Plaintiff’s claims. See O’Callaghan
v. Regents of Univ. of Cal., No. 2:19-cv-2289-JVSDFM, Docket No. 69, at 9-10 (C.D. Cal. Sept. 30,
2019); Sweet v. Cal. Ass’n. of Psychiatric Technicians,
No. 2:19-cv-349-JAM-AC, 2019 WL 4054105 (E.D.
Cal. Aug. 28, 2019); Grossman v. Haw. Gov. Emps.
Ass’n/AFSCME Local 152,382 F. Supp. 3d 1088 (D.
Haw. 2019); Babb v. Cal. Teachers Ass’n, 378 F. Supp.

App. 30
3d 857 (C.D. Cal. 2019); Crockett v. NEA-Alaska, 367
F. Supp. 3d 996, 1009 (D. Alaska 2019) (“Despite the
dicta set forth in Janus that enticed Plaintiff
McCollum to bring such a First Amendment challenge, binding Supreme Court precedent flatly rejects
her position.”); Akers v. Md. State Edu. Ass’n, 376 F.
Supp. 3d 563, 573 (D. Md. 2019) (‘‘Plaintiffs have
agreed with Defendants that this claim is foreclosed
by Supreme Court precedent....”).
At the time of this writing, it appears that every
court to have considered the issue has found that
Knight precludes claims that exclusive representation
in the public sector, alone, amounts to unconstitutional compelled speech or compelled association.
D. Ohio has a Compelling Interest in Preserving
Labor Peace, and its Exclusive Representation
Scheme is Narrowly Tailored to Achieve that Interest
In any event, even if Plaintiff’s First Amendment
claims are not precluded by Supreme Court precedent, they would fail.
Defendants have submitted ample evidence of
Ohio’s history of labor strife and how the system of
exclusive representation has resulted in labor peace.
Millstone Decl., ECF No. 28-1; Buettner Decl., ECF
No. 28-2; Grodin Decl., ECF No. 28-3. Plaintiff has
failed to rebut that evidence. Defendants’ evidence
shows that Ohio has a compelling interest in preserving labor peace and that exclusive representation is
essential to facilitate that interest.

App. 31
Ohio’s system of exclusive representation is narrowly tailored to achieve that end such that it would
survive even strict scrutiny. Although the scheme
means that the terms of any bargained-for collective
bargaining agreement apply to Plaintiff as a member
of the bargaining unit, she remains free to not join the
Union. O.R.C. § 4117.03(A)(1); Stipulated Facts ¶ 16,
ECF No. 59. She remains free to “[f]orm, join, assist,
or participate in, or refrain from forming, joining, assisting, or participating in…any employee organization of [her] own choosing.” O.R.C. § 4117.03(A)(1)
(emphasis added). Moreover, the Union does not
speak for Plaintiff; it speaks for the bargaining unit
of which she is a member, supra, and she remains free
to voice her disagreement with the Union. Hampton
Decl. ¶ 5–8 (and exhibits), ECF No. 56-1; Stipulated
Facts ¶ 20, ECF No. 59; Pl. Mot. Summ. J. 17, ECF
No. 58-1 (conceding Plaintiff has “a near absolute
right to speak out [herself] on matters of public concern and to join alternative labor organizations, just
like [she] may enter into any number of private associations free from government retaliation.” (citing
Heffernan v. City of Paterson, N.J., 136 S. Ct. 112,
1416 (2016)); see also O.R.C. § 4117.03(A)(5). And the
Union must fairly represent even the interests of
those bargaining unit members who are not also Union members, such as Plaintiff. O.R.C. § 41
17.11(8)(6).
All of these aspects of Ohio’s exclusive representation scheme demonstrate that it is narrowly tailored
to achieve the compelling State interest while protecting bargaining unit members’ constitutional rights

App. 32
from undue infringement. Opening the system up to
multiple unions (or permitting non-Union members to
negotiate on their own behalf) would impair the
State’s compelling interest, see Millstone Decl. ¶¶ 12,
15–16, ECF No. 28-1; Buettner Decl. ¶¶ 13–14, ECF
No. 28-2; Grodin Decl. ¶¶ 4–5, 11–13, 15, ECF No. 283, and leaving non-Union members’ interests entirely
unrepresented during bargaining would raise its own
constitutional concerns. Ohio’s system is sufficiently
tailored, and Plaintiff’s discontent with the legislature’s word choice in using “exclusive representative”
instead of a phrase such as “exclusive bargaining
partner” does not render the scheme unconstitutional
as violative of her First Amendment speech and association rights.
Indeed, to the extent Knight does not foreclose
Plaintiff’s claims, Janus strongly suggests that exclusive representation, alone, is narrowly tailored to
achieve the compelling State interest of labor peace.
See Janus, 138 S. Ct. at 2465–66 (assuming labor
peace is a compelling state interest and finding that,
because exclusive representation and agency fees are
not inextricably linked, the agency fees are not sufficiently tailored to achieve that state interest but suggesting that exclusive representation, itself, is sufficiently tailored); see also id. at 2478 (“It is also not
disputed that the State may require that a union
serve as exclusive bargaining agent for its employeesitself a significant impingement on associational freedoms that would not be tolerated in other contexts.
We simply draw the line at allowing the government
to go further still and require all employees to support

App. 33
the union irrespective of whether they share its
views.”); id. at 2466 (discussing federal law, the Postal
Service, and state law permitting the appointment of
exclusive representatives without any hint of disapproval of the same); id. at 2469 (implying that the
duty of fair representation ameliorates any infringement on First Amendment rights caused by appointment of exclusive representative); id. at 2485 n. 27
(“States can keep their labor-relations systems exactly as they are-only they cannot force nonmembers
to subsidize public sector unions. In this way, these
States can follow the model of the federal government
and 28 other States.”).
Thus, this Court agrees with the Ninth Circuit
that “Janus did not revisit the longstanding conclusion that labor peace is ‘a compelling state interest,’
and the Court has long recognized that exclusive representation is necessary to facilitate labor peace;
without it, employers might face ‘inter-union rivalries’ fostering ‘dissention within the work force,’ ‘conflicting demands from different unions,’ and confusion
from multiple agreements or employment conditions.”
Mentele, 916 F.3d at 790 (quoting Janus, 138 S. Ct. at
2465). Plaintiff’s claims would thus fail even if they
were not precluded by binding Supreme Court precedent.
IV. CONCLUSION
In conclusion, the Court’s prior Opinion and Order
fully explains why Supreme Court precedent precludes Plaintiff’s claims. The fact that exclusive representation “would not be tolerated in other contexts,”

App. 34
Janus, 138 S. Ct. at 2478, is irrelevant because the
Supreme Court has stated that it is tolerated in this
context. In fact, although Plaintiff repeats that
phrase as her mantra throughout her briefing, the full
statement by the Supreme Court is, “It is also not disputed that the State may require that a union serve as
exclusive bargaining agent for its employees—itself a
significant impingement on associational freedoms
that would not be tolerated in other contexts.” Id. (emphasis added).
Whatever impingement on Plaintiff’s First
Amendment rights is caused by the exclusive representation scheme, the Supreme Court has found that
the impingement passes constitutional muster. Unless and until the Supreme Court overrules binding
precedent, her claims are precluded by law. Therefore,
Plaintiff’s motion for summary judgment, ECF No.
58, is DENIED, and
Defendants’ motions for summary judgment, ECF
Nos. 56 & 57, are GRANTED.
The Clerk shall enter final judgment for Defendants and terminate the case.
IT IS SO ORDERED.
Michael H. Watson
Michael H. Watson, Judge
United States District Court

App. 35
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
JUDGMENT IN A CIVIL CASE
Jade Thompson,
Plaintiff
v.
Marietta Education Association, et al.,
Defendants
Case No. 2:18-cv-628
Judge Michael H. Watson
[] Jury Verdict. This action came before the Court
for a trial by jury. The issues have been tried and
the jury has rendered its verdict.
[] Decision by Court. This action came to trial or
hearing before the Court. The issues have been
tried or heard and a decision has been rendered.
[X] Decision by Court. This action was decided by
the Court without a trial or hearing.
IT IS ORDERED AND ADJUDGED that pursuant
to the November 26, 2019 Opinion and Order, the
Court DENIES Plaintiff’s Motion for Summary
Judgment and GRANTS Defendants’ Motions for
Summary Judgment.

App. 36
Date: November 26, 2019
Richard Nagel, Clerk
s/ Jennifer Kacsor____________
By Jennifer Kacsor/Courtroom Deputy

App. 37
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
JADE THOMPSON,
Plaintiff
v.
MARIETTA EDUCATION
Case No.:
ASSOCIATION, MARI2: 18-cv-00628-GCSETTA BOARD OF EDUCMV
CATION,
Defendants.

STATEMENT OF STIPULATED
UNDISPUTED FACTS
For purposes of their cross-motions for summary
judgment, the parties stipulate and agree that the following facts are undisputed and accurate. The parties, however, reserve the right to dispute legal materiality of any of these facts. The parties also reserve
the right to submit other evidence in support of or in
opposition to the cross-motions for summary judgment consistent with the Federal Rules of Civil Procedure.
1. The Plaintiff, Jade Thompson, is a Spanish
teacher at Marietta High School in Washington
County, Ohio.

App. 38
2. Defendant Marietta Board of Education (the
“Board”) manages and controls schools in the Marietta School District, including Marietta High School.
3. The Board is an Ohio political subdivision.
4. The Marietta School District is a public school
district, funded with public money.
5. The Board is Ms. Thompson’s employer, operating under provisions of Ohio law, including Ohio Revised Code Title 33 and Chapter 4117, and sets policies for students and staff in the Marietta School District.
6. Defendant Marietta Education Association (the
“Union”) is an “employee organization” as defined in
Ohio’s Public Employees’ Collective Bargaining Act,
Ohio Rev. Code Chapter 4117) (“the Act”).
7. The Union is affiliated with the Ohio Education
Association, an Ohio teachers union, and the National
Education Association, a national teachers union.
8. Ms. Thompson, the Marietta Board of Education, and the Marietta Education Association are all
residents of Washington County, Ohio.
9. Pursuant to the provisions of the Act governing
the designation of employee representatives, the
Board has recognized the Union as the majority-designated exclusive representative of a bargaining unit
of certain public employees of the Board for the purposes of collective bargaining under the Act. The Union has been the designated exclusive representative
of that bargaining unit for several decades.

App. 39
10. The Board and the Union are parties to a collective bargaining agreement, which sets forth the
terms and conditions of employment for the members
of the bargaining unit defined in the collective bargaining agreement.
11. A true and correct copy of the collective bargaining agreement in effect from June 30, 2016
through June 29, 2018 (the “Agreement”) is attached
to Ms. Thompson’s Complaint as Exhibit A, ECF No.
1-1. The Board and the Union have completed their
negotiations for and reached an agreement regarding
a successor collective bargaining agreement (“Successor Agreement”).
12. The Agreement was and the Successor Agreement is governed by Ohio law, including by the provisions of the Act.
13. The Agreement and Successor Agreement record the Board’s and Union’s negotiated points of
agreement on matters subject to mandatory and permissive bargaining under the Act.
14. The Agreement identified a bargaining unit of
“all full and regular part-time certificated personnel
employed under contract, including classroom teachers, special education teachers, psychologists, guidance counselors, librarians, school nurses, head
teacher(s), attendance officer, resource teachers, and
full-time substitutes employed sixty one (61) or more
consecutive days in the same position in a school
year.” Agreement § 1.01. The Successor Agreement

App. 40
does not modify the bargaining unit in a manner material to this lawsuit. This is the bargaining unit for
which the Union has been recognized as the designated exclusive collective bargaining representative
under the Act.
15. Ms. Thompson is a member of the bargaining
unit.
16. Ms. Thompson is not legally obligated to become a member of the Union.
17. Ms. Thompson is not a member of the Union.
18. The Union holds all rights and obligations applicable to public-sector labor unions recognized as exclusive representatives of a bargaining unit under the
Act.
19. The Board holds all rights and obligations applicable to public-sector employers under the Act.
20. Ms. Thompson holds all rights and obligations
applicable to public-sector employees under the Act.
21. Since the Supreme Court’s decision in Janus v.
AFSCME, Council 31, 138 S. Ct. 2448 (2018), Ms.
Thompson has not been legally obligated to make any
payment of money to the Union and has not, in fact,
made any such payment.
22. Since the Supreme Court’s Janus decision, Ms.
Thompson has not been legally obligated to engage in
any “opt out” process to avoid making any payment of
money to the Union.

App. 41
March 4, 2019
Respectfully submitted,
/s/ Eben O. McNair, IV
Eben O. McNair, IV
Timothy Joseph
Gallagher
Schwarzwald McNair &
Fusco LLP
1215 Superior Ave Ste
225
Cleveland, OH 441143257
216-566-1600
Fax: 216-566-1814
Email:
emcnair@smcnlaw.com
Patrick Casey Pitts*
Scott Alan Kronland*
Altshuler Berzon LLP
177 Post Street
Suite 300
San Francisco, CA
94108
415-421-7151
Fax: 415-362-8064
Email:
cpitts@altber.com

/s/Patrick T. Lewis
Patrick T. Lewis
Baker & Hostetler LLP
Key Tower 127 Public
Square, Suite 2000
Cleveland, OH 44114
(216) 621-0200 (phone)
(216) 696-0740 (fax)
Andrew M. Grossman*
Mark W. DeLaquil*
Richard B. Raile*
BAKER &
HOSTETLER LLP
1050 Connecticut Ave.,
N.W.
Washington, DC 20036
(202) 861-1697 (phone)
(202) 861-1783 (fax)
agrossman@bakerlaw.c
om

App. 42
Phillip Hostak*
National Education
Association
1201 16th St. NW
Washington, DC 20036
202-822-7035
Fax: 202-822-7974
Email: phostak@nea.org
Counsel for Defendant
Marietta Education
Association

Robert Alt
The Buckeye Institute
88 East Broad Street,
Suite 1120
Columbus, OH 43215
(614) 224-4422
robert@buckeyeinstitut
e.org
Counsel for Plaintiff

App. 43
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
Jade Thompson,
Plaintiff
v.
Marietta Education Association, et al.,
Defendants
Case No. 2:18-cv-628
Judge Michael H. Watson
Magistrate Judge Vascura
OPINION AND ORDER
Jade Thompson (“Plaintiff’) sues the Marietta
Education Association (“the Union”) and Marietta
Board of Education (“the Board”) (collectively, “Defendants”) under 42 U.S.C. § 1983. She argues that
Ohio Revised Code§ 4117.04–05 is unconstitutional and moves for a preliminary injunction prohibiting Defendants from recognizing the Union as
Plaintiffs representative. The State filed an amicus curiae brief in support of the statute. For the
following reasons, the Court DENIES Plaintiff’s
motion

App. 44
I. FACTS
The following facts are taken from Plaintiff’s
Complaint and pertinent exhibits and declarations, and the Court addresses only those facts relevant to Plaintiff’s remaining claim.1
Plaintiff is a Spanish teacher at Marietta High
School in Washington County, Ohio. The Board
manages and controls schools within the Marietta
School District (including Marietta High School)
and employs Plaintiff. The Union is an employee
organization that represents employees of the
Marietta School District. It is affiliated with the
Ohio Education Association and the National Education Association.
The Board and the Union are parties to a collective bargaining agreement (“CBA”). The CBA establishes a bargaining unit of “all full and regular
1 Plaintiff originally challenged the collective bargaining
agreement's provision requiring the Board to exact a ''fair
share" fee (in the same amount as union dues) from non-union-member employees' paychecks and remit the same to the
Union (Count I). She also challenged the automatic nature of
that provision and the accompanying opt-out requirement
(Count II). The parties later jointly moved to dismiss those
counts as moot after the Board notified Plaintiff that it had
stopped deducting a fair share fee from nonmembers following the Supreme Court's decision in Janus v. Am. Fed'n of
State, Cty., & Mun. Emps., Council 31, 138 S. Ct. 2448 (2018)
and after the Union recognized that it was not entitled to such
fees absent affirmative consent from a nonmember. Joint
Mot., ECF No. 29. The Court granted the parties' joint motion
and dismissed Counts I and II. Order, ECF No. 30.

App. 45
part-time certificated personnel employed under
contract, including classroom teachers, special education teachers, psychologists, guidance counselors. librarians, school nurses, head teacher(s), attendance officer, resource teachers, and full- time
substitutes employed sixty-one (61) or more consecutive days in the same position in a school year.”
CBA § 1.01, ECF No. 15-2. As such, Plaintiff is a
member of the bargaining unit as defined in the
CBA. Plaintiff is not, however, a member of the
Union. Thompson Decl. ¶ 8, ECF No. 15-2. In fact,
Plaintiff disagrees with the Union’s position on
several issues. Id. ¶ 12–17.
Nonetheless, the CBA recognizes the Union as
the “sole and exclusive bargaining agent for the
members of the bargaining unit.”2 CBA § 1.01, ECF
No. 15-2. This provision is legal under Ohio law. Ohio
Rev. Code § 4117.04 (“Public employers shall extend
to an exclusive representative designated under section 4117.05 of the Revised Code, the right to represent exclusively the employees in the appropriate
bargaining unit….”); § 4117.05 (describing how “[a]n
employee organization becomes the exclusive representative of all the public employees in an appropriate unit for the purposes of collective bargaining….”).

2 For ease of reference, the Court will sometimes throughout
this Opinion and Order refer to any future employee organization duly elected as an exclusive representative of public employees in an appropriate bargaining unit for the purposes of
collective bargaining or permissive bargaining as "the Union."

App. 46
Notwithstanding the designation of the Union
as bargaining unit members’ exclusive representative, bargaining unit members are neither required
to join the Union nor to contribute financially to the
Union. Benson Decl. ¶ 10, ECF No. 28- 4; Ohio Rev.
Code § 4117.03(A)(3) (“Public employees have the
right to: (1) Form, join, assist, or participate in, or
refrain from forming, joining, assisting, or participating in, except as otherwise provided in Chapter
4117. of the Revised Code, any employee organization of their own choosing….”). Further, any bargaining unit member (whether a member of the
Union or not) is “free to criticize [the Union’s] positions or take positions different from those taken by
[the Union].” Benson Decl. ¶ 11, ECF No. 28-4.
Moreover, the Union recognizes that “there will always be teachers or other employees represented
by [the Union] who disagree with its positions.” Id.
¶ 12.
Plaintiff contends that Ohio law and the CBA
have violated Plaintiff’s First and Fourteenth
Amendment rights to free speech and free association3 by designating the Union as Plaintiff’s exclusive representative. Specifically, she contends that

3 Plaintiff also alleges that the designation of the Union
as her exclusive representative violates her right to petition
the Government for redress of grievances, Compl. ¶¶ 7, 116,
117, Prayer for Relief (C), ECF No. 1, but the Court does not
address this claim as Plaintiff did not mention it in her motion for a preliminary injunction or during the preliminary
injunction hearing.

App. 47
the designation of the Union as her exclusive representative amounts to compelled speech and compelled association. She seeks a declaration that
Ohio Revised Code§§ 4117.04–05 are unconstitutional and a preliminary injunction prohibiting Defendants from recognizing the Union as her representative.
II. STANDARD OF REVIEW
Preliminary injunctions are “extraordinary and
drastic remed[ies]…never awarded as of right.”
Platt v. Bd. of Comm’rs on Grievances and Discipline of Ohio Supreme Court, 769 F.3d 447, 453 (6th
Cir. 2014) (internal quotation marks and citation
omitted). Nonetheless, Federal Rule of Civil Procedure 65 permits the Court to issue preliminary injunctions upon the satisfaction of certain requirements. The Court considers four factors in determining whether to grant injunctive relief: (1)
whether the movant has established a substantial
probability of success on the merits; (2) whether the
movant would suffer irreparable harm in the absence of an injunction; (3) whether an injunction
would substantially harm third parties; and (4)
whether an injunction would serve the public interest. Winnett v. Caterpillar, Inc., 609 F.3d 404,
408 (6th Cir. 2010). The factors are not prerequisites; rather, they must be balanced in weighing
the equities involved. Capobianco, D.C. v. Summers, 377 F.3d 559,561 (6th Cir. 2004). The plaintiff bears the burden to justify such drastic relief,
even in First Amendment cases, Platt, 769 F.3d at

App. 48
453 (citation omitted), and it should “only be
awarded upon a clear showing that the plaintiff is
entitled to such relief.” Winter v. Nat’l Res. Def.
Council, Inc., 555 U.S. 7, 22 (2008) (citation omitted).
III. ANALYSIS
A. Likelihood of Success on the Merits
As stated above, Plaintiff contends that the designation of the Union as her exclusive representative amounts to compelled speech and forces her
into an expressive association, in violation of the
First and Fourteenth Amendments. Before turning
to the merits of those arguments, the Court notes
that Plaintiff also alleged in her Complaint that
the designation of the Union as her exclusive representative impinges her ability to engage in her
own free speech or her ability to petition the government, see Compl. ¶117 (“That designation restricts the Plaintiffs speech and petitioning.”) (emphasis added), but Plaintiff has waived those arguments. Indeed, at oral argument, counsel for Plaintiff repeatedly asserted that Plaintiff is not alleging
that the statutes violate a right of Plaintiff to be
heard by the Board or to bargain on her own behalf. Tr. 4:17–24, 16:8–10, 33:22–34:12, 36:12–23;
38:3–8, ECF No. 43. With that in mind, the Court
considers the merits of only Plaintiff’s compelled
association and compelled speech arguments.

App. 49
1. Compelled Association
Plaintiff contends that the designation of the Union as her exclusive representative forces her into an
expressive association with the Union. For the reasons that follow, the Court concludes that Minnesota
State Bd. for Community Colleges v. Knight, 465 U.S.
271 (1984) applies to Plaintiffs forced association
claim, and although Knight did not itself involve a
forced association claim, the broad reasoning in the
opinion forecloses such a claim.
The district court in Knight distinguished between “meet and negotiate” sessions (collective bargaining) and “meet and confer’’ sessions. With respect
to collective bargaining, the district court rejected
various attacks on the union’s ability to serve as the
exclusive representative under PELRA4 and con-

4 The Public Employment Labor Relations Act ("PELRA")
was the statute under attack in Knight. It permitted the designation of an exclusive representative and, where such an exclusive representative was appropriately designated, required public employers to "meet and negotiate" on matters subject to collective bargaining only with that exclusive representative.
Knight, 465 U.S. at 274. PELRA also required public employees
to designate a representative to "meet and confer'' with the public employer on matters related to employment that fell outside
the scope of mandatory negotiations, and, if the employees had
selected an exclusive representative for collective bargaining
purposes, that representative also served as the "meet and confer" representative. Id. In short, if an exclusive representative
was selected, public employers were not permitted to "meet and
negotiate" or "meet and confer" with any bargaining unit member other than through the exclusive representative. Id. at 275.

App. 50
cluded that “Abood squarely upholds the constitutionality of exclusive representation bargaining in
the public sector.” Knight v. Minn. Cmty. Coll. Faculty Ass’n, 571 F. Supp. 1, 4 (D. Minn. 1982) (citing
Abood v. Detroit Bd. of Edu., 431 U.S. 209 (1977),
overruled by Janus v. Am. Fed. of State, Cty., and
Mun. Emps., Council 31, 138 S. Ct. 2448 (2018)). In
rejecting the notions that PELRA impermissibly delegated state sovereignty to the union, impermissibly
granted the union the power to make “economic
laws,” and that the union was, in essence, a political
party, the district court held that “Minnesota may
provide for exclusive representation by an employee
association in the public sector and may require that
nonmembers of the association financially support its
collective bargaining efforts through a fair share fee.”
Id. at 5. On appeal, the Supreme Court summarily
affirmed that holding, rejecting “the constitutional
attack on PELRA’s restriction to the exclusive representative of participation in the ‘meet and negotiate’
process.” Knight, 465 U.S. at 279 (citing 103 S. Ct.
1493 (1983)).
However, the district court in Knight also concluded that the “meet and confer’’ process violated
nonmembers’ First Amendment speech and associational rights. In a separate opinion, the Supreme
Court reversed that portion of the district court’s
opinion. The Supreme Court’s specific holding in
Knight (as it related to the appellees’ freedom of association claim with respect to the “meet and confer”
sessions) was that PELRA’s restriction of participa-

App. 51
tion in “meet and confer” sessions to the exclusive representative did not violate the nonmembers’ associational rights. Knight, 465 U.S. at 273. As such, the
holding is not directly dispositive of the claim Plaintiff makes here—that the very designation of the Union as Plaintiffs exclusive representative forces an association between Plaintiff and the Union.
In coming to the holding in Knight, however, the
Supreme Court made broad statements about
PELRA and the freedom of association. For instance,
the Supreme Court stated that “[t]he state has in no
way restrained appellees’…freedom to associate or
not to associate with whom they please, including the
exclusive representative.” Knight, 465 U.S. at 288.
Similarly, it stated later that the nonmembers’ associational freedom was not impaired because the nonmembers were both “free to form whatever advocacy
groups they like” and were “not required to become
members of’ the union. Id. at 289. These broad statements at the very least suggest that because joinder
in the Union is not required, the First Amendment
right to be free from compelled association is still protected. See Bierman v. Dayton, 900 F.3d 570,574 (8th
Cir. 2018) (rejecting the same argument Plaintiff
makes here about the narrowness of Knight’s holding
and reading Knight broadly as affirming that exclusive representation, alone, does not amount to compelled association).
PELRA contained a fair share provision, but the
nonmembers in Knight did not challenge the fair

App. 52
share provision as a violation of their speech or associational rights. Of course, Janus has since established that fair share provisions violate the First
Amendment. But because the fair share provision
was not at issue in Knight, the Supreme Court’s association claim analysis in that case rested on the
reasoning above-the fact that employees were not
forced to join the union meant that their associational
rights were not infringed by designating the union as
those employees’ exclusive representative for purposes of meet and negotiate or meet and confer.
That reasoning is applicable to this case. Indeed,
every court that has considered the argument raised
by Plaintiff has rejected it as foreclosed by Knight.
Hill v. Serv. Emps. Int’l Union, 850 F.3d 861, 863 (7th
Cir. 2017) (rejecting claim that designation of exclusive representative forced employees into an “agencylike association with the [union]” and finding that,
“under Knight, the IPLRA’s exclusive-bargainingrepresentative scheme is constitutionally firm and
not subject to heightened scrutiny.”); Jarvis v.
Cuomo, 660 F. App’x 72, 74 (2d Cir. 2016) (finding the
plaintiff’s claim that designation of an exclusive representative amounted to forced association was “foreclosed” by Knight where the employees were not required to join the union); D’Agostino v. Baker, 812
F.3d 240,244 (1st Cir. 2016) (finding Knight contained the implied premise “that exclusive bargaining representation by a democratically selected union
does not, without more, violate the right of free association on the part of dissenting nonunion members

App. 53
of the bargaining unit.”); Reisman v. Associated Faculties of the Univ. of Maine, No. 1:18-cv-307, 2018 WL
6312996 (D. Maine Dec. 3, 2018) (rejecting the plaintiff’s compelled association claim as foreclosed by
Knight); Mentele v. lnslee, No. C15-5134-RBL, 2016
WL 3017713, at *3 (W.D. Wash. May 26, 2016) (stating that Knight “also reasoned that the restriction did
not infringe employees’ associational freedoms because they did not have to join the representative
group” and finding no forced association where employee was not required to join or pay dues to the union).
As Plaintiff points out, all but one of those cases
was decided before the Supreme Court’s decision in
Janus. Janus overruled prior Supreme Court precedent, Abood v. Detroit Bd. of Edu., regarding the constitutionality of fair share fees paid by nonmembers
to a union. Janus does not change the above analysis,
though.
In overruling Abood, Janus held that forcing nonmembers to pay fair share fees to the exclusive representative union amounts to compelled subsidization of private speech, which violates the nonmembers’ First Amendment free speech and association
rights. Janus, 138 S. Ct. at 2459–60. There is some
dicta in Janus stating that the appointment of an exclusive representative itself infringes on nonmember
employees’ associational rights. Nonetheless, to the
extent such dicta is at odds with Knight’s reasoning
that exclusive representation does not infringe asso-

App. 54
ciational rights, Janus’s discussion in no way questions whether any resulting infringement of First
Amendment associational rights in the labor context
satisfies exacting scrutiny. See, e.g., id. at 2478 (“It is
also not disputed that the State may require that a
union serve as exclusive bargaining agent for its employees-itself a significant impingement on associational freedoms that would not be tolerated in other
contexts. We simply draw the line at allowing the
government to go further still and require all employees to support the union irrespective of whether they
share its views.”); id. at 2466 (discussing federal law,
the Postal Service, and state law permitting the appointment of exclusive representatives without any
hint of disapproval of the same); id. at 2469 (implying
that the duty of fair representation ameliorates any
infringement on First Amendment rights caused by
appointment of exclusive representative); id. at 2485
n. 27 (“States can keep their labor-relations systems
exactly as they are—only they cannot force nonmembers to subsidize public-sector unions. In this way,
these States can follow the model of the federal government and 28 other States.”).
At bottom, although Janus overrules Abood with
respect to the issue of fair share fees, it does not directly question Abood’s foundational premise that
“[t]he principle of exclusive union representation…is
a central element in the congressional structuring of
industrial relations” because it “avoids the confusion
that would result from attempting to enforce two or
more agreements specifying different terms and con-

App. 55
ditions of employment[;]…prevents inter-union rivalries from creating dissention within the work force
and eliminating the advantages to the employee of
collectivization[;]…frees the employer from the possibility of facing conflicting demands from different unions, and permits the employer and a single union to
reach agreements and settlements that are not subject to attack from rival labor organizations.” Abood
v. Detroit Bd. of Edu., 431 U.S. 209, 220–21 (1977).5
Indeed, even after the Supreme Court issued Janus, the United States Court of Appeals for the
Eighth Circuit concluded that a compelled association argument identical to that made by Plaintiff in
this case was “foreclosed by Knight” because there
was “no meaningful distinction between [that plaintiff’s] case and Knight.” Bierman v. Dayton, 900 F.3d
570,574 (8th Cir. 2018).6 The Eighth Circuit concluded that Janus did not supersede Knight because
“the constitutionality of exclusive representation
standing alone was not at issue” in Janus, and Janus
did not even mention Knight. Id.
This Court agrees. Plaintiff argues that Janus
changes the landscape on her compelled speech and
compelled association claims, but plaintiffs in prior
The Union has presented evidence in this case that Ohio
also has an interest in labor peace and that exclusive representation furthers that interest. See, e.g., Millstone Decl. ¶¶
8, 12, 15, 16; Buettner Decl. ¶¶ 7, 11, 13, 14, ECF No. 28-2.
5

6 In Bierman, as here, the employees were not forced to join
the union and were not prevented from joining their own advocacy groups. Bierman, 900 F.3d at 574.

App. 56
cases made the same argument about Harris v.
Quinn, 134 S. Ct. 2618 (2014). In rejecting compelled
speech and compelled association claims as foreclosed by Knight, those pre-Janus courts concluded
that Harris “did not speak to the constitutionality of
the exclusive-bargaining-representative provisions”
of the statutes at issue and, therefore, “did not limit
Knight’s approval of exclusive bargaining representatives.” Hill, 850 F.3d at 564 (citing Jarvis, 660 F.
App’x at 74–75; D’Agostino, 812 F.3d at 244); see also
Mentele, 2016 WL 3017713, at *3. Analogously, this
Court finds that Janus also failed to consider the constitutionality of the mere designation of exclusive
representatives and, therefore, likewise does not
limit Knight’s applicability.
In sum, even after Janus, it remains the case that
“[t]he Supreme Court has not…revisited Knight or
otherwise overturned legislative authorizations of
collective and exclusive bargaining.” Clark v. City of
Seattle, No. C17-382RSL, 2017 WL 3641908, at *3
(W.D. Wash. Aug. 24, 2017). It may be that the Supreme Court extends Janus in the future and declares that the appointment of exclusive representatives itself amounts to compelled association in violation of the First Amendment, but, for now, Knight
seems to foreclose such an argument. See Rodriguez
de Quijas v. Shearson/Am. Exp., Inc., 490 U.S. 477,
484 (1989) (“If a precedent of this Court has direct
application in a case, yet appears to rest on reasons
rejected in some other line of decisions, the Court of
Appeals should follow the case which directly con-

App. 57
trols, leaving to this Court the prerogative of overruling its own decisions.”). Because Knight likely forecloses Plaintiff’s compelled association claim, Plaintiffs are not likely to succeed on the merits of that
claim.
2. Compelled Speech
Plaintiff argues that Knight is not controlling on
Plaintiff’s compelled speech claim because no compelled speech claim was brought in Knight.
Plaintiff is correct insofar as she argues that
Knight did not explicitly consider a compelled speech
claim. However, in reviewing the constitutionality of
PELRA’s restriction of participation in “meet and
confer” sessions to the exclusive representative, the
Supreme Court broadly proclaimed that nonmembers’ “speech and associational rights…have not been
infringed….”7 Knight, 465 U.S. 288. With respect to
freedom of speech, the Supreme Court in Knight reasoned that “[t]he state has in no way restrained appellees’ freedom to speak on any education-related issue….” Id. It noted that “the unique status of the exclusive representative in the ‘meet and confer’ process amplifies its voice in the policymaking process”
but found that such amplification of the union’s voice

7 And, in summarizing the First Amendment claim, the Supreme Court broadly stated that the plaintiffs were "[u]nable to
demonstrate any infringement of any First Amendment
right…."Id. at 291 (emphasis added); see also id. at 290 n.12
("appellees…speech and associational rights have been wholly
unimpaired.").

App. 58
over the nonmembers’ voices did not impair nonmembers’ constitutional freedom to speak. Id. It also concluded that the union’s voice was no more amplified
in “meet and confer” sessions than it was in “meet
and negotiate” sessions, and the Court had summarily upheld the constitutionality of exclusive representation in collective bargaining, suggesting that exclusive representation was also constitutional in the
“meet and confer’’ context. Id. Finally, the Supreme
Court concluded that the union’s ability to retaliate
against bargaining unit members who spoke out
against the union by refusing to appoint those bargaining unit members to “meet and confer” committees did not unconstitutionally chill First Amendment speech. Id. at 289. Thus, Knight concluded that
the statutory scheme prohibiting the plaintiffs from
participating on their own behalf in “meet and confer’’ sessions (because the union served as the exclusive representative) did not unconstitutionally infringe their free speech rights.
Although Knight did not involve a compelled
speech claim, several of the same cases addressed
above have rejected compelled speech claims, along
with compelled association claims, based on the
broad reasoning in Knight. See D’Agostino, 812 F.3d
at 244 (“Nor does the fiduciary characterization support any claim of compelled speech on the theory that
a ‘fiduciary’ union’s position is the more plausibly imputable to a non-union dissenter.”); see also Reisman,
2018 WL 6312996; Hill, 850 F.3d at 865 n.4 (“Because
we hold that the IPLRA does not give rise to a mandatory association, we decline to address appellants’

App. 59
argument that the IPLRA gives Illinois ‘untrammeled authority…to designate mandatory agents to
speak and contract for citizens in their relations with
government.”‘); Uradnik v. Inter Faculty Org., No. 181895(PAM/LIB), 2018 WL 4654751 (D. Minn. Sept.
27, 2018) (rejecting compelled speech claim as foreclosed by Knight and stating, “The IFO speaks for the
collective, and not for individual members; those individuals may speak their mind freely and speak to
their public employer on their own behalf.”).
Plaintiff argues that Knight is inapplicable to her
compelled speech claim because the plaintiffs in
Knight sought the right to represent themselves at
“meet and confer” sessions whereas Plaintiff does not
seek the right to represent herself (or to be represented by a different organization) in either “meet
and negotiate” or “meet and confer’’ sessions. Because
she asks only that the Union not be deemed her representative or deemed to speak for her, she argues,
her case is unlike Knight.
This Court agrees with the above cases that
Knight forecloses Plaintiff’s compelled speech claim
even though Knight did not involve a compelled
speech claim. Plaintiff’s argument is unpersuasive as
her position and the position of the plaintiffs in
Knight are two sides of the same coin. That is, if the
Court grants Plaintiff her requested relief-prohibiting the Union from holding itself out as representing
Plaintiff or the Board from recognizing the Union as
representing her, then Plaintiff (and any future em-

App. 60
ployees who choose not to be represented by the Union) must either: (1) be given some right to bargain
(on their own behalf or by joining competing unions
that have the right to bargain on their behalf); or (2)
be entirely deprived of representation at the bargaining table. The former scenario would necessarily destroy the Union’s status as the sole negotiator, which
Plaintiff argued at oral argument she does not seek
to do.8 E.g., Tr. 4:17-24, ECF No. 43. Moreover, the
right to bargain on their own behalf was exactly the

8 Plaintiff contends her requested relief would not "end
collective bargaining or open it up to multiple competing unions" and argues that her requested relief would still permit
the Union to "continue speaking,…continue negotiating
terms and conditions of employment and other policy concessions with the Board…and continue to apply the terms of its
collective-bargaining agreement to all bargaining-unit members" Reply 2, ECF No. 35. It is not clear to the Court, though,
exactly how it could grant Plaintiff her requested relief while
permitting the Union to be the sole negotiator with the Board
because it is the very act of representing Plaintiff in negotiating terms and conditions of employment and other policy concessions that Plaintiff alleges violates her First Amendment
rights. At bottom, the Court cannot square Plaintiff's contentions that "the labor union, as well as the board, can largely
continue as they've been going," Tr.34:13-14, with her legal
arguments and requested relief. If, however, Plaintiff is seeking nothing more than to maintain the status quo with the
addition of a statement from both the Union and the Board
that both entities recognize that the Union's views are not to
be presumed to be Plaintiff's views, then the Court believes
the parties may be able to resolve this lawsuit and recommends the parties engage in good faith settlement discussions.

App. 61
right the plaintiffs sought-and which was found nonexistent in Knight. Knight, 465 U.S. at 283.
Only under the latter of the above scenarios would
Plaintiff’s requested relief not disrupt the Union’s
right to be the exclusive negotiator. But a system in
which the Union is the sole negotiator on matters of
collective or permissible bargaining, and yet some
public employees are not represented by the Union,
is arguably unconstitutional as itself violating the
First Amendment. See Janus, 138 S. Ct. at 2469
(“[D]esignating a union as the exclusive representative of nonmembers substantially restricts the nonmembers’ rights. Protection of their interests is
placed in the hands of the union, and if the union
were free to disregard or even work against those interests, these employees would be wholly unprotected. That is why we said many years ago that serious constitutional questions would arise if the union were not subject to the duty to represent all employees fairly.” (internal quotation marks and citations omitted)). Just as constitutional issues would
arise were unions appointed exclusive representatives of nonmembers but had no duty to fairly represent those nonmembers, even more serious issues
would arise if a union was the sole entity allowed to
bargain with the State but did not represent nonmembers (who were prevented from being represented by any other entity or by themselves). In both
situations, nonmembers would be “wholly unprotected.”

App. 62
In sum, Plaintiff’s requested relief would leave
nonmembers completely unrepresented at the bargaining table unless they were given the concomitant
right to represent themselves or be represented by
another group of their choosing. The Supreme Court
found no such concomitant right existed in Knight.
Thus, although Plaintiff asks for relief different
than what the plaintiffs sought in Knight, the holding
in Knight nonetheless forecloses Plaintiff’s claim.
Further, D’Agostino explained that:
[n]o matter what adjective is used to
characterize it, the relationship [between
the nonmember and the union] is one that is
clearly imposed by law, not by any choice on
a dissenter’s part, and when an exclusive
bargaining agent is selected by majority
choice, it is readily understood that employees in the minority, union or not, will probably disagree with some positions taken by
the agent answerable to the majority. And
the freedom of the dissenting appellants to
speak out publicly on any union position
further counters the claim that there is an
unacceptable risk the union speech will be
attributed to them contrary to their own
views; they may choose to be heard distinctly
as dissenters if they so wish….
812 F.3d at 244 (citing Knight, 465 U.S. at 288).
Indeed, Knight itself recognized that the respondent in the case “consider[ed] the views expressed

App. 63
by the state- wide faculty ‘meet and confer’ committees to be the faculty’s official collective position. It recognizes, however, that not every instructor agrees with the official faculty view on every
policy question.” Knight, 465 U.S. at 277.
Here, Defendants did not offer any declarations
from Board members that the Board does not assume the Union’s speech reflects the views of every
bargaining unit member. Still, David Millstone,
who negotiated hundreds of collective bargaining
agreements while representing public and private
employers, declared that:
public employers were certainly aware
that not all employees represented by the
union shared the same views as the union.
Public employers were aware that the union
was supported by a majority of the employees in the bargaining unit, but did not necessarily have the support of all employees in
that unit, and that some represented employees disagreed with the union’s positions
and views.
Millstone Decl. ¶ 14, ECF No. 28-1. Indeed, this
sentiment is practically a matter of common sense.
See D’Agostino, supra; Clark v. City of Seattle) No.
C17-0382RSL, 2017 WL 3641908, at *3 (W.D.
Wash. Aug. 24, 2017) (“The selection of an [exclusive driver representative] by majority vote—as
specified in the Ordinance—would make unreasonable any assumption that all members of the
bargaining unit support the representative, much

App. 64
less every one of its policy positions.” (citation
omitted)). Thus, although the Union represents
Plaintiff, and in that representation “speaks for
her,” realistically, it is speaking for the bargaining
unit members as a collective rather than purporting to espouse specific views for any individual bargaining unit member.
Finally, just as Janus does not undermine
Knight as it relates to Plaintiff’s compelled association claim, neither does it undermine Knight with
respect to her compelled speech claim. Janus held
that fair share fees amount to unconstitutional
compelled subsidization of private speech. Janus,
138 S. Ct. at 2460. Janus does not dictate success
on Plaintiff’s compelled speech claim, however.
As noted above, Janus does not challenge
Abood’s determination that exclusive representation furthers the compelling State interest of labor
peace and even suggests that exclusive representation is the only appropriately tailored way of furthering that interest. Id. at 2466.
Indeed, the Janus Court dispelled the notion
that a “State has a compelling interest in requiring
the payment of agency fees because (1) unions
would otherwise be unwilling to represent nonmembers....” Id. at 2467. In finding that unions
would continue to represent nonmembers even
without agency fees, the Court discussed the benefits of exclusive representation, including that, as
an exclusive representative, “the union [is] given
the exclusive right to speak for all the employees

App. 65
in collective bargaining, [and] the employer is required by state law to listen to and to bargain in
good faith with only that union.” Id. at 2467 (citation omitted). Thus, even in explicitly recognizing
that an exclusive representative union speaks for
all employees in a bargaining unit, the Janus
Court offered no hint that such a scheme, in and of
itself, amounted to compelled speech that violated
bargaining unit members’ First Amendment
rights.
Similarly, in addressing the respondent’s
originalism argument, the Janus Court concluded
that public employees did not historically lack free
speech protections. Id. at 2469–72. But even in
stating that public-sector unionization ”would
astound those who framed and ratified the Bill of
Rights,” the Court explicitly said that it was “not
in any way questioning the foundations of modem
labor law.” Id. at 2471 n.7. Thus, Janus does not
undermine Knight or support Plaintiffs compelled
speech claim, and Plaintiff is unlikely to prevail on
that claim.
In conclusion, Plaintiff is not likely to succeed
on the merits of either her compelled speech or
compelled association claim, and this factor weighs
against granting a preliminary injunction.
B.

Irreparable Harm

The Court next considers whether Plaintiff
would suffer irreparable harm without the requested injunction. When determining this factor,

App. 66
“[s]uch harm must be ‘likely,’ not just possible.”
Tri-Cty. Wholesale Distributors, Inc. v. Wine Grp.,
Inc., No. 10-4202, 565 F. App’x 477, at *482 (6th
Cir. June 29, 2012) (quoting Winter, 555 U.S. at
22). “A plaintiff’s harm from the denial of a preliminary injunction is irreparable if it is not fully compensable by monetary damages.” Id. (citations and
internal quotation marks omitted).
Plaintiff’s purported irreparable harm is the
deprivation of her First Amendment rights to free
speech and free association. Any such harm would
be irreparable, but, because the Court has concluded that Plaintiff is unlikely to prevail on her
First Amendment claims, the Court also finds that
Plaintiff will not likely suffer irreparable harm absent an injunction. This factor therefore weighs
against granting a preliminary injunction.
C.

Harm to Third Parties

The Union and the Board are currently negotiating a successor CBA, and a preliminary injunction could substantially harm the Union, the
Board, and other bargaining unit members. If the
Court granted Plaintiff’s requested injunction, it
would be utterly unclear to both the Union and the
Board how to proceed with negotiations as they related to the terms and conditions of Plaintiff’s employment. Plaintiff is not seeking the right to negotiate her contract herself or through another entity, and if the Union did not represent her in negotiations, the Board would be unable to negotiate

App. 67
her contract. Further, Plaintiff’s proposed injunction prohibits the Board from recognizing the Union as the representative of any bargaining unit
members who are not members of the Union, see
ECF No. 15-3, leaving each of those third parties
likewise unrepresented in negotiations. Such relief
would harm those third parties, and the Court
finds this factor weighs against granting Plaintiff’s
requested relief.
D.

Public Interest

The public has an interest in protecting the
freedom of speech, and “it is always in the public
interest to prevent the violation of a party’s constitutional rights.” G&V Lounge, Inc. v. Mich. Liquor
Control Comm’n, 23 F.3d 1071, 1079 (6th Cir.
1994) (quoting Gannett Co., Inv. v. DePasqule, 443
U.S. 368, 383 (1979)). The Court has concluded,
though, that Ohio’s exclusive representative system does not likely violate Plaintiff’s free speech or
association rights, and the public interest also lies
in avoiding the type of labor strife that predated
passage of Ohio’s collective bargaining law. Accordingly, this factor weighs against granting
Plaintiffs requested preliminary injunction.
IV. CONCLUSION
For the above reasons, Plaintiffs motion for a
preliminary injunction, ECF No. 15, is DENIED.
The Clerk shall terminate ECF No. 15 from the
pending motions list.

App. 68
IT IS SO ORDERED.
Michael H. Watson
Michael H. Watson, Judge
United States District Court

App. 69
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
JADE THOMPSON,
Plaintiff
v.
MARIETTA EDUCATION ASSOCIATION,
MARIETTA BOARD OF
EDUCATION,

Case No.:
2: 18-cv-00628-GCSCMV

Defendants.

DECLARATION OF JADE THOMPSON
Pursuant to 28 U.S.C. § 1746, I, Jade Thompson,
declare and state as follows:
1. I am over the age of 18 years and am competent
to make this declaration. I have personal knowledge
of the facts stated herein, and if called as a witness, I
could and would competently testify thereto.
2. I am a Spanish teacher at Marietta High School
in Washington County, Ohio.
3. I am an employee of the Marietta School Board
(the “Board”), which employs teachers in Marietta
public schools.
4. The Marietta Education Association (the “Union”) has been designated as the exclusive bargaining
agent for employees of the Board.

App. 70
5. The Board has entered into a series of collective
bargaining agreements with the Union, including the
latest “Agreement.” A true and correct copy of the
Agreement is attached as Exhibit A.
6. Under that Agreement, the bargaining unit includes “all full and regular parttime certificated personnel employed under contract, including classroom
teachers, special education teachers, psychologists,
guidance counselors, librarians, school nurses, head
teacher(s), attendance officer, resource teachers, and
full-time substitutes employed sixty one (61) or more
consecutive days in the same position in a school
year.” Ex. A,§ 1.01.
7. I belong to the bargaining unit covered by the
Agreement.
8. I am not a member of the Union.
9. Under Ohio law and the Agreement, and without my affirmative consent, the Union acts as my exclusive representative and agent to the Board when
collectively bargaining, in grievance proceedings, in
other contacts with the Board and its agents and employees, and when engaging in other public and governmental advocacy.
10. The Union speaks on my behalf. The Union’s
speech to and petitioning of the government in its
representative capacity is imputed to me because of
the Union’s status under Ohio law and the Agreement as my agent and representative, despite that I
do not authorize the Union to advocate or otherwise
speak on my behalf.

App. 71
11. My unwanted association with the Union is
forced upon me by Ohio law and government officials,
despite my actual refusal to associate with the Union.
12. I oppose many of the positions the Union has
taken, including on political and policy matters.
13. I oppose numerous of the positions that the
Union has taken on my behalf relating to, among
other things, wages, hours, and conditions of employment. Indeed, the Union has taken positions as my
exclusive representative that are contrary to my conscience and beliefs
14. Specifically, I oppose the Union’s position requiring seniority to be the sole substantive criteria in
layoff decisions to the exclusion of any merit factors.
And I oppose the Union’s position, included the
Agreement, that dictates that layoffs will be “determined by a toss of the coin” in cases of equal seniority,
even if such a tie exists between the teacher of the
year and a poor-performing teacher. Agreement
§ 25.031.
15 . I oppose positions advocated by the Union
that favored or resulted in the cutting of academic
programs rather than allowing a reduction in fringe
benefits for teachers.
16. I oppose positions advocated by the Union that
exclude teachers who are not Union members from
participation in the Evaluation Committee. Agreement§ 14.061.
17. I oppose positions promoted by the union that
exclude teachers who are not Union members from

App. 72
participation in the Student Growth Measures Committee. Agreement§ 14.071.
18. I have no control over the Union’s choices of
positions to advocate, despite that the Union advocates those positions on my behalf.
19. The Union took out radio and television advertisements opposing my husband, Andy Thompson, a
member of the Ohio General Assembly, when he ran
for office. The Union’s president also advocated
against him in emails to my colleagues and me at
Marietta High School.
20. I am restricted from speaking on my own behalf or petitioning the government on my own behalf
by virtue of the Union’s designation as my exclusive
bargaining agent.
I declare under penalty of perjury that the foregoing is true and correct. Executed on July 21, 2018.
Jade Thompson
Jade Thompson

App. 73
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
JADE THOMPSON,
Plaintiff
v.
MARIETTA EDUCATION ASSOCIATION,
MARIETTA BOARD OF
EDUCATION,

Case No.:
2: 18-cv-00628
Judge:

Defendants.

COMPLAINT
Jade Thompson, for her Complaint against the
Marietta Education Association and the Marietta
Board of Education (collectively, “Defendants”), alleges as follows:
NATURE OF THE ACTION
1. This action challenges the Defendants’ unlawful scheme of withholding money from the paychecks
of public employees to fund the speech and petitioning of a labor union without their affirmative consent.
2. The First Amendment protects the individual
rights of free speech and association, including the
rights not to speak and not to associate. Accordingly,
public employees who do not belong to a labor union
“should not be required to fund a union’s political and

App. 74
ideological projects unless they choose to do so.” Knox
v. Serv. Employees Int’l Union, Local 1000, 567 U.S.
298, 315 (2012). Furthermore, “[b]ecause a publicsector union takes many positions during collective
bargaining that have powerful political and civic consequences, the compulsory fees constitute a form of
compelled speech and association that imposes a significant impingement on First Amendment rights.”
Id. at 311–12 (quotations and citations omitted). As
the Supreme Court has now made clear in Janus v.
American Federation of State, County, and Municipal
Employees, Council 31, No. 16-1466, Slip Op. (June
2018), that burden is impermissible.
3. In violation of these principles, Ohio law authorizes local governments and labor unions to require public employees who are not union members
to fund union activities. And it authorizes them to deduct fees to fund those activities from public employees’ paychecks, absent those employees’ affirmative
consent.
4. That arrangement is unlawful for at least three
independent reasons.
5. First, union activities “germane” to collective
bargaining are expressive and associational activities
that public employees have a First Amendment right
not to subsidize. Janus v. American Federation of
State, County, and Municipal Employees, Council 31,
No. 16-1466, Slip Op. 7–18 (June 2018). Thus, a union has no right to the money of any public employee
who does not consent to funding it. The government

App. 75
may not require its employees to subsidize a labor union’s speech and petitioning of government.
6. Second, the First Amendment requires that the
government obtain the affirmative consent of a person before directing her money to subsidize a private
organization’s speech, petitioning of government, and
other political and ideological activities. But, as Janus now holds, a waiver of First Amendment rights
“cannot be presumed”; rather, agency fees cannot be
collected from non-union members “[u]nless employees clearly and affirmatively consent.” Janus, Slip
Op. at 48. Just like any other organization—a church,
a charity, an activist group—a labor union has no inherent right to any individual’s money, and the government therefore may not simply deduct union fees
of any kind from a public employee’s paycheck absent
that employee’s affirmative consent. Requiring public
employees to periodically navigate an arduous “optout” scheme to avoid subsidizing speech with which
they disagree—and taking their money if they are unable to navigate that regime perfectly every time—is
not sufficiently tailored to protect their First Amendment rights.
7. Third, “[d]esignating a union as the employees’
exclusive representative substantially restricts the
rights of individual employees. Among other things,
this designation means that individual employees
may not be represented by any agent other than the
designated union; nor may individual employees negotiate directly with their employer.” Janus, Slip Op.
2. For that reason, and because the union’s advocacy

App. 76
is attributed to employees, that designation violates
employees’ speech and petitioning rights, as well as
their associational rights, in contravention of the
First Amendment.
8. For these reasons, the agency-fee, “opt-out,”
and exclusive representation schemes employed by
Ohio public employers and unions are unconstitutional. The Plaintiff is entitled to a declaration to that
effect and to an injunction prohibiting the Defendants from continuing to burden the Plaintiff’s First
Amendment rights through operation of their unconstitutional fee-deduction scheme.
PARTIES
9. The Plaintiff, Jade Thompson, is a Spanish
teacher at Marietta High School in Washington
County, Ohio.
10. Defendant Marietta Board of Education (the
“Board”) manages and controls schools in the Marietta School District, including Marietta High School.
Ohio Rev. Code § 3313.47. The Board is an Ohio political subdivision, see Ohio Rev. Code § 2743.01(B),
and a corporate body capable of being sued, Ohio Rev.
Code § 3313.17. The Board employs teachers in Marietta public schools, including Ms. Thompson. Ohio
Rev. Code § 3319.07(A).
11. Defendant Marietta Education Association
(the “Union”) is an “employee organization” as defined in the Ohio public-employees labor-relations
code, Ohio Rev. Code § 4117.01(D), and represents
employees of the Marietta School District. The Union

App. 77
is affiliated with the Ohio Education Association, an
Ohio teachers union, and the National Education Association, a national teachers union.
JURISDICTION AND VENUE
12. This case raises claims under the First and
Fourteenth Amendments of the federal Constitution
and 42 U.S.C. § 1983. Jurisdiction is proper under 28
U.S.C. § 1331.
13. Ms. Thompson, the Marietta Board of Education, and the Marietta Education Association are all
residents of Washington County, Ohio. Venue is
proper in this District under 28 U.S.C. § 1391(b).
FACTUAL ALLEGATIONS
A. Ohio Law Permits Governmental Entities
To Exact “Agency Fees” from Public Employees
to Fund Union Speech Without Employees’ Affirmative Consent
14. Under Ohio law, a union may become the exclusive bargaining represented for public employees
in a bargaining unit, such as a public school district,
by submitting proof that a majority of the bargainingunit employees wish to be represented exclusively by
the union. Ohio Rev. Code § 4117.05; see also Ohio
Rev. Code § 4117.04 (providing that public employers
shall recognize and bargain with a designated “exclusive representative).
15. A public employer must bargain collectively
with that union. Ohio Rev. Code Ann. § 4117.04(B).

App. 78
16. Ohio law sets a broad scope to negotiations,
including “[a]ll matters pertaining to wages, hours,
or terms and other conditions of employment” as well
as over “the continuation, modification, or deletion of
any existing provision of a collective bargaining
agreement.” Ohio Rev. Code § 4117.08(A).
17. Permissive subjects of bargaining include:
“matters of inherent managerial policy,” such as “the
functions and programs of the public employer”;
“standards of services”; the employer’s “overall
budget”; its “organizational structure”; hiring, discipline, and supervision of employees; methods “by
which governmental operations are to be conducted”;
and other matters related to “the mission of the public employer as a governmental unit.” Ohio Rev. Code
§ 4117.08(C).
18. An agreement between a public employer and
union on any of these topics must be reduced to writing and executed.
19. Ohio law permits such an agreement to contain a provision requiring the public employer to collect a “fair share” fee from employees. Ohio Rev. Code
§ 4117.09(C). Although the statute does not empower
public employers to require union membership as a
condition of employment, it does empower them to deduct fees in the same amount as union dues from nonmember employees’ paychecks and remit those to the
relevant unions. Id.
20. The fee is deducted from non-members’
paychecks automatically “and does not require the

App. 79
written authorization of the employee.” Ohio Rev.
Code § 4117.09(C).
21. Ohio law requires that, if a collective-bargaining agreement provides for a fair-share arrangement,
the union establish an internal procedure for issuing
rebates to employees who are entitled to withhold all
or a portion of the fair-share agreement. Ohio Rev.
Code § 4117.09(C).
22. A rebate is only required for “expenditures in
support of partisan politics or ideological causes not
germaine [sic] to the work of employee organizations
in the realm of collective bargaining.” Ohio Rev. Code
§ 4117.09(C). The Ohio Administrative Code confirms
the limited scope of fees subject to rebate. Ohio Admin. Code § 4117-11-01(A) (“The internal rebate procedure shall provide for a rebate of expenditures in
support of partisan politics or ideological causes not
germane to the work of employee organizations in the
realm of collective bargaining. Any employee who has
paid to the employee organization a fair share fee
may apply to the employee organization for a rebate
for such expenditures.”)
23. By statute, a rebate may be conditioned on the
employee’s making “a timely demand on the employee organization.” Ohio Rev. Code § 4117.09(C).
24. By statute, the union may determine whether
the employee is entitled to a rebate, and that determination is subject to review only for “arbitrary and

App. 80
capricious action” in an appeal before the Ohio Employment Relations Board. Ohio Rev. Code §
4117.09(C).
25. An appeal must be filed within 30 days of the
determination, and the appeal must specify “the arbitrary or capricious nature of the determination.”
Ohio Rev. Code § 4117.09(C). A petition must identify
the amount of the employee’s fair share fee, include a
copy of the rebate determination, state the reasons
“why the rebate determination was arbitrary and capricious,” and contain proof of service on the union.
Ohio Admin. Code § 4117-11.01(B). The union may
respond to the petition, and it may be subject to a
hearing by the Employment Relations Board. Ohio
Admin. Code § 4117-11.01(C).
B. The Board Agrees To Exact Agency Fees
from Its Employees’ Paychecks To Fund the Union’s Speech Without Employees’ Affirmative
Consent
26. The Board and the Union are parties to a collective bargaining agreement with a term from June
30, 2016, through June 29, 2018. See Exhibit A (the
“Agreement”).
27. The Agreement establishes a bargaining unit
of “all full and regular part-time certificated personnel employed under contract, including classroom
teachers, special education teachers, psychologists,
guidance counselors, librarians, school nurses, head
teacher(s), attendance officer, resource teachers, and
full-time substitutes employed sixty one (61) or more

App. 81
consecutive days in the same position in a school
year.” Agreement § 1.01.
28. The Agreement recognizes the Union as the
“sole and exclusive bargaining agent for the members
of the bargaining unit.” Agreement § 1.01.
29. The Agreement records the Board’s and Union’s negotiated points of agreement, including those
pertaining to wages, benefits, grievances, teacher
planning time, professional meetings, the school day,
the school year, student discipline, school activities,
class size, transfer, leaves of absence, vacancies,
teacher lounges, performance appraisals, and so
forth.
30. The Agreement also includes an Article titled
“Association Rights.”
31. Among its provisions is one requiring that
“[a]ll bargaining unit members who are not members
of the Association shall pay a monthly agency fee
equivalent to the monthly dues uniformly required of
such members.” Agreement § 27.018.
32. It provides that the agency fee amount “be automatically deducted commencing the first paycheck
on or after January 15th of each year and continue to
be deducted throughout the remaining paychecks.”
33. It also provides that the payment “shall be
subject to a rebate procedure provided by the Association meeting all requirements of applicable state
and federal law.” Agreement § 27.018.

App. 82
34. Pursuant to this provision, the Union has
adopted an opt-out procedure.
35. Under that procedure, the agency fee amount
is deducted from the paychecks of bargaining unit
members to fund the Union’s activities without their
affirmative consent.
36. That procedure presumes that the Board’s
non-union employees wish to have an agency fee
equivalent in amount to union dues deducted each
month from their paychecks and that such employees
wish to fund the Union’s political activities to the
same extent as a Union member. An employee who
does not indicate otherwise through the optout procedure will have that amount automatically deducted
each month, and a portion of that fee will be used to
fund the Union’s political activities.
37. Employees who oppose funding the Union’s political activities must follow the opt-out procedure to
avoid doing so each year. Among other things, the
employee must send the opt-out notice via mail or deliver it in person to a Union representative.
38. The employee may only opt out between specific dates in mid-December and mid-January of each
year (typically December 15 through January 15).
39. To qualify, the employee’s objection must be
received or post-marked by the January deadline.
40. If the employee does not comply with the procedure to register an objection, the employee’s rights
are waived, and the Union proceed to collect the full
agency fee for the entire year.

App. 83
41. If the employee does successfully register an
objection, the Union affords a fee reduction for that
single year.
42. To assess whether the Union’s calculation of
the fee reduction is correct, the employee must examine a notice the Union provides, called a Hudson notice, outlining the Union’s political spending.
43. Disputes over the calculation are submitted to
arbitration.
44. If the employee wishes to challenge the arbitration decision, the employee must file a petition
with the Ohio Employment Relations Board within
30 days of the determination. As described above, the
determination is subject to an arbitrary-and-capricious standard of review.
45. The Agreement does not permit an employee
to opt-out from paying the remainder of the agency
fee that is (according to the Union’s calculation) “germane” to collective bargaining and not attributable to
partisan politics or ideological causes.
46. Even if the Agreement did permit an employee
to opt-out from paying agency fees altogether, such a
scheme would presume that employees wish to have
an agency fee deducted each month from their
paychecks to fund the Union’s activities, including
collective bargaining.

App. 84
C. The Board Infringes Ms. Thompson’s First
Amendment Rights by Withholding Funds from
Her Paycheck To Fund the Union’s Speech
Without Her Affirmative Consent
47. The Union transfers percentages of dues and
of agency fee payments to its affiliates, the National
Education Association and the Ohio Education Association.
48. The Union and its affiliates advocate on a wide
range of issues.
49. The National Education Association, for example, has published a 150-page handbook of its currently in-force resolutions. These include resolutions
on matters ranging from education policy, school financing, charter schools, and early childhood learning to “social and economic justice,” the constitutional
convention process of Article V, voting rights, historic
preservation, covert operations and counterintelligence activities, and the “self-determination of indigenous people,” racial preferences, sex education, the
metric system, D.C. statehood, U.S. participation in
the International Court of Justice and criminal court,
and gun control.
50. The National Education Association generally
adopts such measures at its annual “Representative
Assembly.” The National Education Association
treats its Representative Assembly as fully chargeable to non-members. It therefore funds these advocacy efforts, in part, through agency fees collected
from non-members.

App. 85
51. The Ohio Education Association also advocates on political issues and has adopted a handbook
of legislative policies on a swath of issues, including
legislative redistricting, voter identification laws,
minimum wage, asbestos, nuclear waste storage and
dumping, public-employee retirement.
52. The Ohio Education Association adopted these
and other measures at its representative assembly,
which it treats as fully chargeable to non-members.
It therefore funds these advocacy efforts, in part,
through agency fees collected from non-members.
53. Both the National Education Association and
Ohio Education Association encourage members to
engage in political advocacy and providing training
for that purpose.
54. The Ohio Education Association and National
Education Association obtain funding for their activities through the dues of members of affiliated local
unions, such as the Marietta Education Association,
and through agency-fee payments made to such local
unions.
55. Both the National Education Association and
Ohio Education Association undertake political and
ideological activities that they do not regard as “germane” to collective bargaining. These political and
ideological activities are funded through dues of
members of affiliated local unions, such as the Marietta Education Association, and through agency-fee
payments made to such local unions.

App. 86
56. The Union’s collective bargaining activities
and other activities that it regarded as “germane” to
collective bargaining are funded through dues of
members and through agency-fee payments by nonmembers.
57. Ms. Thompson is a member of the bargaining
unit identified in Article 1.01 of the Agreement.
58. Ms. Thompson is not a member of the Union.
59. Ms. Thompson disagrees with the Union’s
stance on many issues, including issues on which the
Union and its representatives have taken positions in
the course of collective bargaining.
60. These disagreements came to a head in 2010,
when Ms. Thompson’s husband, Andy Thompson, ran
for the Ohio House of Representatives.
61. The Ohio Education Association launched an
attack campaign against Mr. Thompson, through
mailers and radio and television advertisements.
62. The president of the Marietta Education Association emailed every teacher at Marietta High
School, urging them to vote and advocate against Mr.
Thompson.
63. Ms. Thompson’s agency fees fund the activities
of the Union, the National Education Association,
and the Ohio Education Association.
64. To avoid funding union the political and ideological activities that unions have identified as not
being “germane” to collective bargaining, Ms. Thomp-

App. 87
son must take steps every year to opt out of the portion of the agency fee that Ohio law and the Agreement allow her not to pay.
65. These steps take time.
66. These steps cost money.
67. Ms. Thompson must prepare a written notice
to the Union.
68. She must research what to say in the notice.
69. She must research how to send the notice.
70. She must research where and when to send
the notice.
71. She must prepare the mailing.
72. She must pay the postage.
73. She must travel to a post office to send the notice via certified mail.
74. On receiving the Union’s response, she must
independently verify the amount the Union calculates as being reimbursable. This requires examination of a detailed Hudson notice.
75. Assessing her rights, including under changes
in the legal regime, may require consultation with an
attorney or accountant, and failure to undertake such
consultation may prevent her from identifying and
remediating any infringement of her rights.
76. If Ms. Thompson fails to undertake any step of
this process for any reason or fails to navigate the
process accurately, the Union collects the full agency

App. 88
fee and uses it to subsidize political and ideological
causes she opposes.
77. Even if she successfully completes this opt-out
procedure, Ms. Thompson is still compelled to subsidize activities the Union and its affiliates have identified as “germane” to collective bargaining, despite
the fact that she opposes positions that the Union
takes in collective bargaining and other activities and
speech that the Union and its affiliates regard as
“germane” to collective bargaining.
78. She must navigate this opt-out procedure
anew each year.
79. Ms. Thompson has in previous years opted out
of paying non-chargeable fees.
80. Ms. Thompson opted out of paying non-chargeable fees in January 2018
81. Ms. Thompson has, nevertheless, been required to pay chargeable fees.
D. Ohio’s Opt-Out Scheme Violates the First
Amendment
82. Agency-shop arrangements, such as Ohio’s
fair-share law, impose a “significant impingement on
First Amendment rights” because “[t]he dissenting
employee is forced to support financially an organization with whose principles and demands he may disagree.” Ellis v. Bhd. of Ry., Airline & S.S. Clerks, 466
U.S. 435, 455 (1984)). This “impingement” is quite severe because “public-sector union[s] take[] many po-

App. 89
sitions during collective bargaining that have powerful political and civic consequences.” Knox, 132 S. Ct.
at 2289.
83. Moreover, “any procedure for exacting [union]
fees from unwilling contributors must be carefully
tailored to minimize the infringement of free speech
rights.” Id. at 2291 (citation omitted). By contrast,
“unions have no constitutional entitlement to the fees
of nonmember-employees.” Id. (citation omitted). Rather, their “collection of fees from nonmembers is authorized by an act of legislative grace.” Id. (citation
omitted).
84. The Agreement’s agency-fee provision and the
provisions of Ohio law that enable it are unconstitutional for two independent reasons.
85. First, Ohio law permits Ohio governmental entities to require employees who are not members of a
union to fund activities identified by the union as
“germane” to collective bargaining, including speech
on matters of public concerning and petitioning of
government on matters of public concern.
86. As the Supreme Court held in its recent decision in Janus v. American Federation of State,
County, and Municipal Employees, Council 31, No.
16-1466, Slip Op. (June 2018), this is unconstitutional.
87. Second, Ohio law’s opt-out procedure is unconstitutional.

App. 90
88. Requiring public employees to affirmatively
opt out to obtain a rebate is an unacceptable burden
on speech.
89. No compelling government interest supports
requiring public employees to affirmatively opt out.
90. As the Supreme Court held in its recent decision in Janus v. American Federation of State,
County, and Municipal Employees, Council 31, No.
16-1466, Slip Op. (June 2018), it is unconstitutional
to collect agency fees from employees who do not “affirmatively consent” as shown “by clear and compelling evidence.” Janus, Slip Op. at 48 (quotations
omitted).
91. Even if there were a compelling government
interest, requiring public employees to affirmatively
opt out to obtain a rebate is not narrowly tailored.
92. The process to affirmatively opt out is arduous.
93. A public employee must attempt to opt out
every year.
94. If a union denies the rebate, the employee
must then prosecute an arduous administrative appeal with an unfavorable standard of review.
95. There is a more narrowly tailored alternative
to all of these onerous procedures: requiring that, before the government withholds funds from a public
employee’s paycheck to fund a labor union’s activities, the employee affirmative consent to the with-

App. 91
holding. This would remove the burden from those individuals electing not to fund union speech and allow
those individuals interested in supporting such
speech to do so.
COUNT I
Exacting Compulsory Fees to Support
Collective Bargaining Violates the First
Amendment
96. The Plaintiff incorporates and re-alleges each
and every allegation in the foregoing paragraphs as
though fully set forth herein.
97. The First Amendment to the United States
Constitution provides: “Congress shall make no
law… abridging the freedom of speech.”
98. The Fourteenth Amendment to the United
States Constitution incorporates the protection of the
First Amendment against the States, providing: “No
State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person
of life, liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the
equal protection of the laws.”
99. By requiring the Plaintiff to make any financial contributions in support of any union, Ohio’s fairshare arrangement violates the Plaintiff’s rights under the First and Fourteenth Amendments to the
United States Constitution.
100. The Plaintiff has no adequate remedy at law.

App. 92
101. The controversy between Defendants and the
Plaintiff is a definite and concrete dispute concerning
the legal relations of parties with adverse legal interests.
102. The dispute is real and substantial, as the
Union is continuing to collect fees each month from
the Plaintiff’s paycheck.
103. The declaratory relief sought is not based on
a hypothetical state of facts, nor would it amount to
a mere advisory opinion, as the parties dispute the
legality of ongoing seizure of a portion of the Plaintiff’s paycheck.
104. As a result of the foregoing, an actual and
justiciable controversy exists between the Plaintiff
and the Union regarding their respective legal rights,
and the matter is ripe for review.
COUNT II
Requiring an Individual To Opt Out from Exactions To Subsidize a Labor Union’s Speech
and Petitioning Violates the First Amendment
105. The Plaintiff incorporates and re-alleges each
and every allegation contained in the foregoing paragraphs of this Complaint, as though fully set forth
herein.
106. By requiring the Plaintiff to opt-out from
funding union speech and petitioning activities with
which she disagrees, Ohio’s agency-fee arrangement
violates the Plaintiff’s rights under the First and

App. 93
Fourteenth Amendments to the United States Constitution.
107. The Supreme Court has now made clear:
“Neither an agency fee nor any other payment to the
union may be deducted from a nonmember’s wages,
nor may any other attempt be made to collect such a
payment, unless the employee affirmatively consents
to pay.” Janus, Slip Op. at 48.
108. The Plaintiff has no adequate remedy at law.
109. The controversy between Defendants and the
Plaintiff is a definite and concrete dispute concerning
the legal relations of parties with adverse legal interests.
110. The dispute is real and substantial, as the
Union is continuing to collect fees each month from
the Plaintiff’s paycheck and will continue to do so in
coming months and years.
111. The declaratory relief sought is not based on
a hypothetical state of facts, nor would it amount to
a mere advisory opinion, as the parties dispute the
legality of ongoing seizure of a portion of the Plaintiff’s paycheck.
112. As a result of the foregoing, an actual and
justiciable controversy exists between the Plaintiff
and the Union regarding their respective legal rights,
and the matter is ripe for review.

App. 94
COUNT III
Designating a Union as Employees’ “Exclusive
Representative” Violates the First Amendment
113. The Plaintiff incorporates and re-alleges each
and every allegation contained in the foregoing paragraphs of this Complaint, as though fully set forth
herein.
114. By designating the Union as the Plaintiff’s
exclusive representative, Ohio law and the Agreement violate the Plaintiff’s rights under the First and
Fourteenth Amendments to the United States Constitution
115. That designation compels the Plaintiff to associate with the Union.
116. That designation attributes the Union’s
speech and petitioning to the Plaintiff.
117. That designation restricts the Plaintiff’s
speech and petitioning.
118. The Plaintiff has no adequate remedy at law.
119. The controversy between Defendants and the
Plaintiff is a definite and concrete dispute concerning
the legal relations of parties with adverse legal interests.
120. The dispute is real and substantial, as the
Union continues to hold itself out as the Plaintiff’s
exclusive representative and its designation as such
restricts the Plaintiff’s rights.

App. 95
121. The declaratory relief sought is not based on
a hypothetical state of facts, nor would it amount to
a mere advisory opinion, as the parties dispute the
legality of the Union’s designation as the Plaintiff’s
exclusive representative.
122. As a result of the foregoing, an actual and
justiciable controversy exists between the Plaintiff
and the Union regarding their respective legal rights,
and the matter is ripe for review.
COSTS AND ATTORNEY FEES
123. Pursuant to 42 U.S.C § 1988, the Plaintiff
seeks an award of costs and attorney fees incurred in
the litigation of this case.
PRAYER FOR RELIEF
For these reasons, Ms. Thompson requests that
the Court:
(A) Enter a judgment declaring that Ohio’s fairshare law, codified in Ohio Rev. Code § 4117.09(C)
and Ohio Admin. Code § 4117-11-01(A), and the
Agreement impermissibly abridge Ms. Thompson’s
First Amendment free- speech rights by requiring
payment of fees to a union as a condition of public
employment;
(B) Enter a judgment declaring that Ohio’s fairshare law, codified in Ohio Rev. Code § 4117.09(C)
and Ohio Admin. Code § 4117-11-01(A), and the
Agreement impermissibly abridge Ms. Thompson’s
First Amendment free speech rights by requiring Ms.

App. 96
Thompson to opt out of the fair-share process to seek
reimbursement of fees through a rebate scheme.
(C) Enter a judgment declaring that Ohio’s exclusive-representation law, codified in Ohio Rev. Code §
4117.04–05, and the Agreement impermissibly
abridge
Ms. Thompson’s First Amendment speech, petitioning, and associational rights by designating the
Union as Ms. Thompson’s exclusive representative;
(D) Enter an injunction barring Defendants from
seeking to require payment of agency fees from any
employee who has not affirmatively consented to financially support the Union;
(E) Enter an injunction barring Defendants from
recognizing the Union as Ms. Thompson’s exclusive
representative or representative;
(F) An award of costs, including reasonable attorney fees, pursuant to 28 U.S.C. § 1988(b); and
(G) Grant to Ms. Thompson such additional or different relief as the Court deems just and proper.

Respectfully submitted,
/s/Patrick T. Lewis
Patrick T. Lewis (0078314)
Trial Attorney
Email: plewis@bakerlaw.com
BAKER & HOSTETLER LLP

App. 97
Key Tower
127 Public Square, Suite 2000
Cleveland, OH 44114
(216) 621-0200 / Fax (216) 6960740
Robert D. Alt (0091753)**
Daniel J. Dew (0089502)**
THE BUCKEYE INSTITUTE
88 East Broad Street, Suite 1120
Columbus, OH 43215
(614) 224-4422
Email:
robert@buckeyeinstitute.org
Andrew M. Grossman*
Mark W. DeLaquil*
Richard B. Raile*
Email:
agrossman@bakerlaw.com
Email: mdelaquil@bakerlaw.com
Email: rraile@bakerlaw.com
BAKER & HOSTETLER LLP
1050 Connecticut Ave., N.W.
Washington, DC 20036
(202) 861-1697 / Fax (202) 8611783
Counsel for Plaintiff, Jade
Thompson
* Pro hac vice motions
forthcoming

App. 98
** Applications for admission
forthcoming

App. 99
Ohio Statutes (2018)
4117.01 Public employees’ collective
bargaining definitions.
As used in this chapter:
(A) “Person,” in addition to those included in division (C) of section 1.59 of the Revised Code, includes
employee organizations, public employees, and public
employers.
(B) “Public employer” means the state or any political subdivision of the state located entirely within
the state, including, without limitation, any municipal corporation with a population of at least five thousand according to the most recent federal decennial
census; county; township with a population of at least
five thousand in the unincorporated area of the township according to the most recent federal decennial
census; school district; governing authority of a community school established under Chapter 3314. of the
Revised Code; college preparatory boarding school established under Chapter 3328. of the Revised Code or
its operator; state institution of higher learning; public or special district; state agency, authority, commission, or board; or other branch of public employment. “Public employer” does not include the nonprofit corporation formed under section 187.01 of the
Revised Code.
(C) “Public employee” means any person holding a
position by appointment or employment in the ser-

App. 100
vice of a public employer, including any person working pursuant to a contract between a public employer
and a private employer and over whom the national
labor relations board has declined jurisdiction on the
basis that the involved employees are employees of a
public employer, except:
(1) Persons holding elective office;
(2) Employees of the general assembly and employees of any other legislative body of the public employer whose principal duties are directly related to
the legislative functions of the body;
(3) Employees on the staff of the governor or the
chief executive of the public employer whose principal duties are directly related to the performance of
the executive functions of the governor or the chief
executive;
(4) Persons who are members of the Ohio organized militia, while training or performing duty under section 5919.29 or 5923.12 of the Revised Code;
(5) Employees of the state employment relations
board, including those employees of the state employment relations board utilized by the state personnel
board of review in the exercise of the powers and the
performance of the duties and functions of the state
personnel board of review;
(6) Confidential employees;
(7) Management level employees;
(8) Employees and officers of the courts, assistants to the attorney general, assistant prosecuting

App. 101
attorneys, and employees of the clerks of courts who
perform a judicial function;
(9) Employees of a public official who act in a fiduciary capacity, appointed pursuant to section 124.11 of the Revised Code;
(10) Supervisors;
(11) Students whose primary purpose is educational training, including graduate assistants or associates, residents, interns, or other students working as part-time public employees less than fifty per
cent of the normal year in the employee’s bargaining
unit;
(12) Employees of county boards of election;
(13) Seasonal and casual employees as determined by the state employment relations board;
(14) Part-time faculty members of an institution
of higher education;
(15) Participants in a work activity, developmental activity, or alternative work activity under sections 5107.40 to 5107.69 of the Revised Code who
perform a service for a public employer that the public employer needs but is not performed by an employee of the public employer if the participant is not
engaged in paid employment or subsidized employment pursuant to the activity;
(16) Employees included in the career professional
service of the department of transportation under
section 5501.20 of the Revised Code;

App. 102
(17) Employees of community-based correctional
facilities and district community-based correctional
facilities
created
under
sections 2301.51 to 2301.58 of the Revised Code.
(D) “Employee organization” means any labor or
bona fide organization in which public employees
participate and that exists for the purpose, in whole
or in part, of dealing with public employers concerning grievances, labor disputes, wages, hours, terms,
and other conditions of employment.
(E) “Exclusive representative” means the employee organization certified or recognized as an exclusive representative under section 4117.05 of the
Revised Code.
(F) “Supervisor” means any individual who has
authority, in the interest of the public employer, to
hire, transfer, suspend, lay off, recall, promote, discharge, assign, reward, or discipline other public employees; to responsibly direct them; to adjust their
grievances; or to effectively recommend such action,
if the exercise of that authority is not of a merely routine or clerical nature, but requires the use of independent judgment, provided that:
(1) Employees of school districts who are department chairpersons or consulting teachers shall not be
deemed supervisors.
(2) With respect to members of a police or fire department, no person shall be deemed a supervisor except the chief of the department or those individuals

App. 103
who, in the absence of the chief, are authorized to exercise the authority and perform the duties of the
chief of the department. Where prior to June 1, 1982,
a public employer pursuant to a judicial decision, rendered in litigation to which the public employer was
a party, has declined to engage in collective bargaining with members of a police or fire department on
the basis that those members are supervisors, those
members of a police or fire department do not have
the rights specified in this chapter for the purposes of
future collective bargaining. The state employment
relations board shall decide all disputes concerning
the application of division (F)(2) of this section.
(3) With respect to faculty members of a state institution of higher education, heads of departments
or divisions are supervisors; however, no other faculty member or group of faculty members is a supervisor solely because the faculty member or group of
faculty members participate in decisions with respect
to courses, curriculum, personnel, or other matters of
academic policy.
(4) No teacher as defined in section 3319.09 of the
Revised Code shall be designated as a supervisor or a
management level employee unless the teacher is
employed under a contract governed by section 3319.01, 3319.011, or 3319.02 of the Revised
Code and is assigned to a position for which a license
deemed to be for administrators under state board
rules is required pursuant to section 3319.22 of the
Revised Code.

App. 104
(G) “To bargain collectively” means to perform the
mutual obligation of the public employer, by its representatives, and the representatives of its employees to negotiate in good faith at reasonable times and
places with respect to wages, hours, terms, and other
conditions of employment and the continuation, modification, or deletion of an existing provision of a collective bargaining agreement, with the intention of
reaching an agreement, or to resolve questions arising under the agreement. “To bargain collectively” includes executing a written contract incorporating the
terms of any agreement reached. The obligation to
bargain collectively does not mean that either party
is compelled to agree to a proposal nor does it require
the making of a concession.
(H) “Strike” means continuous concerted action in
failing to report to duty; willful absence from one’s
position; or stoppage of work in whole from the full,
faithful, and proper performance of the duties of employment, for the purpose of inducing, influencing, or
coercing a change in wages, hours, terms, and other
conditions of employment. “Strike” does not include a
stoppage of work by employees in good faith because
of dangerous or unhealthful working conditions at
the place of employment that are abnormal to the
place of employment.
(I) “Unauthorized strike” includes, but is not limited to, concerted action during the term or extended
term of a collective bargaining agreement or during
the pendency of the settlement procedures set forth

App. 105
in section 4117.14 of the Revised Code in failing to report to duty; willful absence from one’s position; stoppage of work; slowdown, or abstinence in whole or in
part from the full, faithful, and proper performance
of the duties of employment for the purpose of inducing, influencing, or coercing a change in wages,
hours, terms, and other conditions of employment.
“Unauthorized strike” includes any such action, absence, stoppage, slowdown, or abstinence when done
partially or intermittently, whether during or after
the expiration of the term or extended term of a collective bargaining agreement or during or after the
pendency of the settlement procedures set forth in
section 4117.14 of the Revised Code.
(J) “Professional employee” means any employee
engaged in work that is predominantly intellectual,
involving the consistent exercise of discretion and
judgment in its performance and requiring
knowledge of an advanced type in a field of science or
learning customarily acquired by a prolonged course
in an institution of higher learning or a hospital, as
distinguished from a general academic education or
from an apprenticeship; or an employee who has completed the courses of specialized intellectual instruction and is performing related work under the supervision of a professional person to become qualified as
a professional employee.
(K) “Confidential employee” means any employee
who works in the personnel offices of a public employer and deals with information to be used by the

App. 106
public employer in collective bargaining; or any employee who works in a close continuing relationship
with public officers or representatives directly participating in collective bargaining on behalf of the employer.
(L) “Management level employee” means an individual who formulates policy on behalf of the public
employer, who responsibly directs the implementation of policy, or who may reasonably be required on
behalf of the public employer to assist in the preparation for the conduct of collective negotiations, administer collectively negotiated agreements, or have
a major role in personnel administration. Assistant
superintendents, principals, and assistant principals
whose employment is governed by section 3319.02 of
the Revised Code are management level employees.
With respect to members of a faculty of a state institution of higher education, no person is a management level employee because of the person’s involvement in the formulation or implementation of academic or institution policy.
(M) “Wages” means hourly rates of pay, salaries,
or other forms of compensation for services rendered.
(N) “Member of a police department” means a person who is in the employ of a police department of a
municipal corporation as a full-time regular police officer as the result of an appointment from a duly established civil service eligibility list or under section 737.15 or 737.16 of the Revised Code, a full-time
deputy sheriff appointed under section 311.04 of the
Revised Code, a township constable appointed under

App. 107
section 509.01 of the Revised Code, or a member of a
township or joint police district police department appointed under section 505.49 of the Revised Code.
(O) “Members of the state highway patrol” means
highway patrol troopers and radio operators appointed under section 5503.01 of the Revised Code.
(P) “Member of a fire department” means a person
who is in the employ of a fire department of a municipal corporation or a township as a fire cadet, fulltime regular firefighter, or promoted rank as the result of an appointment from a duly established civil
service
eligibility
list
or
under
section 505.38, 709.012, or 737.22 of the Revised Code.
(Q) “Day” means calendar day.
4117.03 Rights of public employees
(A) Public employees have the right to:
(1) Form, join, assist, or participate in, or refrain from forming, joining, assisting, or participating in, except as otherwise provided in Chapter
4117. of the Revised Code, any employee organization of their own choosing;
(2) Engage in other concerted activities for the
purpose of collective bargaining or other mutual
aid and protection;
(3) Representation by an employee organization;
(4) Bargain collectively with their public employers to determine wages, hours, terms and

App. 108
other conditions of employment and the continuation, modification, or deletion of an existing provision of a collective bargaining agreement, and enter into collective bargaining agreements;
(5) Present grievances and have them adjusted, without the intervention of the bargaining
representative, as long as the adjustment is not
inconsistent with the terms of the collective bargaining agreement then in effect and as long as
the bargaining representatives have the opportunity to be present at the adjustment.
(B) Persons on active duty or acting in any capacity as members of the organized militia do not
have collective bargaining rights.
(C) Except as provided in division (D) of this section, nothing in Chapter 4117. of the Revised Code
prohibits public employers from electing to engage in
collective bargaining, to meet and confer, to hold discussions, or to engage in any other form of collective
negotiations with public employees who are not subject to Chapter 4117. of the Revised Code pursuant to
division (C) of section 4117.01of the Revised Code.
(D) A public employer shall not engage in collective bargaining or other forms of collective negotiations with the employees of county boards of elections
referred to in division (C)(12) of section 4117.01 of the
Revised Code.
(E) Employees of public schools may bargain collectively for health care benefits.

App. 109
4117.04 Public employers exclusive
representative
(A) Public employers shall extend to an exclusive
representative designated under section 4117.05 of
the Revised Code, the right to represent exclusively
the employees in the appropriate bargaining unit and
the right to unchallenged and exclusive representation for a period of not less than twelve months following the date of certification and thereafter, if the
public employer and the employee organization enter
into an agreement, for a period of not more than three
years from the date of signing the agreement. For the
purposes of this section, extensions of agreements
shall not be construed to affect the expiration date of
the original agreement.
(B) A public employer shall bargain collectively
with an exclusive representative designated under
section 4117.05 of the Revised Code for purposes of
Chapter 4117. of the Revised Code.
When the state employment relations board notifies a public employer that it has certified an employee organization as exclusive representative for a
unit of its employees, the public employer shall designate an employer representative and promptly notify the board and the employee organization of his
identity and address. On certification, the employee
organization shall designate an employee representative and promptly notify the board and the public employer of his identity and address. The board or any
party shall address to the appropriate designated
representative all communications concerned with

App. 110
collective relationships under Chapter 4117. of the
Revised Code. In the case of municipal corporations,
counties, school districts, educational service centers,
villages, and townships, the designation of the employer representative is as provided in division (C) of
section 4117.10 of the Revised Code. The designated
representative of a party may sign agreements resulting from collective bargaining on behalf of his
designator; but the agreements are subject to the procedures set forth in Chapter 4117. of the Revised
Code.
4117.05 Employee organization to become
exclusive representative - procedure
(A)
An employee organization becomes the exclusive representative of all the public employees in
an appropriate unit for the purposes of collective bargaining by either:
(1) Being certified by the state employment
relations board when a majority of the voting employees in the unit select the employee organization as their representative in a board-conducted
election under section 4117.07 of the Revised
Code;
(2) Filing a request with a public employer
with a copy to the state employment relations
board for recognition as an exclusive representative. In the request for recognition, the employee
organization shall describe the bargaining unit,
shall allege that a majority of the employees in the

App. 111
bargaining unit wish to be represented by the employee organization, and shall support the request
with substantial evidence based on, and in accordance with, rules prescribed by the board demonstrating that a majority of the employees in the
bargaining unit wish to be represented by the employee organization. Immediately upon receipt of
a request, the public employer shall either request
an election under division (A)(2) of section 4117.07
of the Revised Code, or take the following action:
(a) Post notice in each facility at which
employees in the proposed unit are employed, setting forth the description of the
bargaining unit, the name of the employee
organization requesting recognition, and the
date of the request for recognition, and advising employees that objections to certification
must be filed with the state employment relations board not later than the twenty-first
day following the date of the request for
recognition;
(b) Immediately notify the state employment relations board of the request for recognition.
The state employment relations board
shall certify the employee organization filing
the request for recognition on the twenty-second day following the filing of the request for
recognition, unless by the twenty-first day
following the filing of the request for recognition it receives:

App. 112
(i)
A petition for an election from
the public employer pursuant to division
(A)(2) of section 4117.07 of the Revised
Code;
(ii)
Substantial evidence based on,
and in accordance with, rules prescribed
by the board demonstrating that a majority of the employees in the described bargaining unit do not wish to be represented
by the employee organization filing the
request for recognition;
(iii) Substantial evidence based on,
and in accordance with, rules prescribed
by the board from another employee organization demonstrating that at least
ten percent of the employees in the described bargaining unit wish to be represented by such other employee organization; or
(iv) Substantial evidence based on,
and in accordance with, rules prescribed
by the board indicating that the proposed
unit is not an appropriate unit pursuant
to section 4117.06 of the Revised Code.
(B)
Nothing in this section shall be construed
to permit a public employer to recognize, or the state
employment relations board to certify, an employee
organization as an exclusive representative under
Chapter 4117. of the Revised Code if there is in effect

App. 113
a lawful written agreement, contract, or memorandum of understanding between the public employer
and another employee organization which, on the effective date of this section, has been recognized by a
public employer as the exclusive representative of the
employees in a unit or which by tradition, custom,
practice, election, or negotiation has been the only
employee organization representing all employees in
the unit; this restriction does not apply to that period
of time covered by any agreement which exceeds
three years. For the purposes of this section, extensions of agreement do not affect the expiration of the
original agreement.
4117.07 Procedure upon filing petition for election
(A)
When a petition is filed, in accordance with
rules prescribed by the state employment relations
board:
(1) By any employee or group of employees, or
any individual or employee organization acting in
their behalf, alleging that at least thirty per cent
of the employees in an appropriate unit wish to be
represented for collective bargaining by an exclusive representative, or asserting that the designated exclusive representative is no longer the
representative of the majority of employees in the
unit, the board shall investigate the petition, and
if it has reasonable cause to believe that a question of representation exists, provide for an appropriate hearing upon due notice to the parties;

App. 114
(2) By the employer alleging that one or more
employee organizations has presented to it a
claim to be recognized as the exclusive representative in an appropriate unit, the board shall
investigate the petition, and if it has reasonable
cause to believe that a question of representation
exists, provide for an appropriate hearing upon
due notice to the parties.
If the board finds upon the record of a hearing
that a question of representation exists, it shall
direct an election and certify the results thereof.
No one may vote in an election by proxy. The
board may also certify an employee organization
as an exclusive representative if it determines
that a free and untrammelled election cannot be
conducted because of the employer’s unfair labor
practices and that at one time the employee organization had the support of the majority of the
employees in the unit.
(B)
Only the names of those employee organizations designated by more than ten per cent of the
employees in the unit found to be appropriate may be
placed on the ballot. Nothing in this section shall be
construed to prohibit the waiving of hearings by stipulation, in conformity with the rules of the board, for
the purpose of a consent election.
(C)
The board shall conduct representation
elections by secret ballot cast, at the board’s discretion, by mail or electronically or in person, and at
times and places selected by the board subject to the
following:

App. 115
(1) The board shall give no less than ten days’
notice of the time and place of an election;
(2) The board shall establish rules concerning
the conduct of any election including, but not limited to, rules to guarantee the secrecy of the ballot;
(3) The board may not certify a representative
unless the representative receives a majority of
the valid ballots cast;
(4) Except as provided in this section, the
board shall include on the ballot a choice of “no
representative”;
(5) In an election where none of the choices on
the ballot receives a majority, the board shall conduct a runoff election. In that case, the ballot shall
provide for a selection between the two choices or
parties receiving the highest and the second highest number of ballots cast in the election.
(6) The board may not conduct an election under this section in any appropriate bargaining
unit within which a board-conducted election was
held in the preceding twelve-month period, nor
during the term of any lawful collective bargaining agreement between a public employer and an
exclusive representative.
Petitions for elections may be filed with the
board no sooner than one hundred twenty days or
later than ninety days before the expiration date
of any collective bargaining agreement, or after
the expiration date, until the public employer and

App. 116
exclusive representative enter into a new written
agreement.
For the purposes of this section, extensions of
agreements do not affect the expiration date of the
original agreement.
4117.08 Matters subject to collective
bargaining
(A)
All matters pertaining to wages, hours, or
terms and other conditions of employment and the
continuation, modification, or deletion of an existing
provision of a collective bargaining agreement are
subject to collective bargaining between the public
employer and the exclusive representative, except as
otherwise specified in this section and division (E) of
section 4117.03 of the Revised Code.
(B)
The conduct and grading of civil service
examinations, the rating of candidates, the
establishment of eligible lists from the examinations,
and the original appointments from the eligible lists
are not appropriate subjects for collective bargaining.
(C)
Unless a public employer agrees otherwise
in a collective bargaining agreement, nothing in
Chapter 4117. of the Revised Code impairs the right
and responsibility of each public employer to:
(1) Determine matters of inherent managerial
policy which include, but are not limited to areas
of discretion or policy such as the functions and
programs of the public employer, standards of
services, its overall budget, utilization of
technology, and organizational structure;

App. 117
(2) Direct,
employees;

supervise,

evaluate,

or

hire

(3) Maintain and improve the efficiency and
effectiveness of governmental operations;
(4) Determine the overall methods, process,
means, or personnel by which governmental
operations are to be conducted;
(5) Suspend, discipline, demote, or discharge
for just cause, or lay off, transfer, assign,
schedule, promote, or retain employees;
(6) Determine the adequacy of the work force;
(7) Determine the overall mission of the
employer as a unit of government;
(8) Effectively manage the work force;
(9) Take actions to carry out the mission of the
public employer as a governmental unit.
The employer is not required to bargain on
subjects reserved to the management and
direction of the governmental unit except as affect
wages, hours, terms and conditions of
employment, and the continuation, modification,
or deletion of an existing provision of a collective
bargaining agreement. A public employee or
exclusive representative may raise a legitimate
complaint or file a grievance based on the
collective bargaining agreement.

App. 118
4117.11 Unfair labor practice
(A)
It is an unfair labor practice for a public
employer, its agents, or representatives to:
(1) Interfere with, restrain, or coerce employees in the exercise of the rights guaranteed in
Chapter 4117. of the Revised Code or an employee
organization in the selection of its representative
for the purposes of collective bargaining or the adjustment of grievances;
(2) Initiate, create, dominate, or interfere
with the formation or administration of any employee organization, or contribute financial or
other support to it; except that a public employer
may permit employees to confer with it during
working hours without loss of time or pay, permit
the exclusive representative to use the facilities of
the public employer for membership or other
meetings, or permit the exclusive representative
to use the internal mail system or other internal
communications system;
(3) Discriminate in regard to hire or tenure of
employment or any term or condition of employment on the basis of the exercise of rights guaranteed by Chapter 4117. of the Revised Code. Nothing precludes any employer from making and enforcing an agreement pursuant to division (C) of
section 4117.09 of the Revised Code.
(4) Discharge or otherwise discriminate
against an employee because he has filed charges

App. 119
or given testimony under Chapter 4117. of the Revised Code;
(5) Refuse to bargain collectively with the representative of his employees recognized as the exclusive representative or certified pursuant to
Chapter 4117. of the Revised Code;
(6) Establish a pattern or practice of repeated
failures to timely process grievances and requests
for arbitration of grievances;
(7) Lock out or otherwise prevent employees
from performing their regularly assigned duties
where an object thereof is to bring pressure on the
employees or an employee organization to compromise or capitulate to the employer’s terms regarding a labor relations dispute;
(8) Cause or attempt to cause an employee organization, its agents, or representatives to violate division (B) of this section.
(B)
It is an unfair labor practice for an employee organization, its agents, or representatives, or
public employees to:
(1) Restrain or coerce employees in the exercise of the rights guaranteed in Chapter 4117. of
the Revised Code. This division does not impair
the right of an employee organization to prescribe
its own rules with respect to the acquisition or retention of membership therein, or an employer in
the selection of his representative for the purpose
of collective bargaining or the adjustment of grievances.

App. 120
(2) Cause or attempt to cause an employer to
violate division (A) of this section;
(3) Refuse to bargain collectively with a public
employer if the employee organization is recognized as the exclusive representative or certified
as the exclusive representative of public employees in a bargaining unit;
(4) Call, institute, maintain, or conduct a boycott against any public employer, or picket any
place of business of a public employer, on account
of any jurisdictional work dispute;
(5) Induce or encourage any individual employed by any person to engage in a strike in violation of Chapter 4117. of the Revised Code or refusal to handle goods or perform services; or
threaten, coerce, or restrain any person where an
object thereof is to force or require any public employee to cease dealing or doing business with any
other person, or force or require a public employer
to recognize for representation purposes an employee organization not certified by the state employment relations board;
(6) Fail to fairly represent all public employees in a bargaining unit;
(7) Induce or encourage any individual in connection with a labor relations dispute to picket the
residence or any place of private employment of
any public official or representative of the public
employer;

App. 121
(8) Engage in any picketing, striking, or other
concerted refusal to work without giving written
notice to the public employer and to the state employment relations board not less than ten days
prior to the action. The notice shall state the date
and time that the action will commence and, once
the notice is given, the parties may extend it by
the written agreement of both.
(C)
The determination by the board or any
court that a public officer or employee has committed
any of the acts prohibited by divisions (A) and (B) of
this section shall not be made the basis of any charge
for the removal from office or recall of the public officer or the suspension from or termination of employment of or disciplinary acts against an employee, nor
shall the officer or employee be found subject to any
suit for damages based on such a determination; however nothing in this division prevents any party to a
collective bargaining agreement from seeking enforcement or damages for a violation thereof against
the other party to the agreement.
(D)
As to jurisdictional work disputes, the
board shall hear and determine the dispute unless,
within ten days after notice to the board by a party to
the dispute that a dispute exists, the parties to the
dispute submit to the board satisfactory evidence
that they have adjusted, or agreed upon the method
for the voluntary adjustment of, the dispute.

App. 122
4117.14 Settlement of dispute between
exclusive representative and public employer procedures
(A)
The procedures contained in this section
govern the settlement of disputes between an exclusive representative and a public employer concerning
the termination or modification of an existing collective bargaining agreement or negotiation of a successor agreement, or the negotiation of an initial collective bargaining agreement.
(B)
(1) In those cases where there exists a collective bargaining agreement, any public employer
or exclusive representative desiring to terminate,
modify, or negotiate a successor collective bargaining agreement shall:
(a) Serve written notice upon the other
party of the proposed termination, modification, or successor agreement. The party must
serve the notice not less than sixty days prior
to the expiration date of the existing agreement or, in the event the existing collective
bargaining agreement does not contain an expiration date, not less than sixty days prior to
the time it is proposed to make the termination
or modifications or to make effective a successor agreement.

App. 123
(b) Offer to bargain collectively with the
other party for the purpose of modifying or terminating any existing agreement or negotiating a successor agreement;
(c)
Notify the state employment relations board of the offer by serving upon the
board a copy of the written notice to the other
party and a copy of the existing collective bargaining agreement.
(2) In the case of initial negotiations between
a public employer and an exclusive representative, where a collective bargaining agreement has
not been in effect between the parties, any party
may serve notice upon the board and the other
party setting forth the names and addresses of the
parties and offering to meet, for a period of ninety
days, with the other party for the purpose of negotiating a collective bargaining agreement.
If the settlement procedures specified in divisions (B), (C), and (D) of this section govern the
parties, where those procedures refer to the expiration of a collective bargaining agreement, it
means the expiration of the sixty-day period to negotiate a collective bargaining agreement referred
to in this subdivision, or in the case of initial negotiations, it means the ninety-day period referred to in this subdivision.
(3) The parties shall continue in full force and
effect all the terms and conditions of any existing
collective bargaining agreement, without resort to

App. 124
strike or lock-out, for a period of sixty days after
the party gives notice or until the expiration date
of the collective bargaining agreement, whichever
occurs later, or for a period of ninety days where
applicable.
(4) Upon receipt of the notice, the parties shall
enter into collective bargaining.
(C)
In the event the parties are unable to reach
an agreement, they may submit, at any time prior to
forty-five days before the expiration date of the collective bargaining agreement, the issues in dispute to
any mutually agreed upon dispute settlement procedure which supersedes the procedures contained in
this section.
(1) The procedures may include:
(a) Conventional arbitration of all unsettled issues;
(b) Arbitration confined to a choice between the last offer of each party to the agreement as a single package;
(c)
Arbitration confined to a choice of the
last offer of each party to the agreement on
each issue submitted;
(d) The procedures described in division
(C)(1)(a), (b), or (c) of this section and including
among the choices for the arbitrator, the recommendations of the fact finder, if there are
recommendations, either as a single package
or on each issue submitted;

App. 125
(e)
Settlement by a citizens’ conciliation
council composed of three residents within the
jurisdiction of the public employer. The public
employer shall select one member and the exclusive representative shall select one member. The two members selected shall select the
third member who shall chair the council. If
the two members cannot agree upon a third
member within five days after their appointments, the board shall appoint the third member. Once appointed, the council shall make a
final settlement of the issues submitted to it
pursuant to division (G) of this section.
(f)
Any other dispute settlement procedure mutually agreed to by the parties.
(2) If, fifty days before the expiration date of
the collective bargaining agreement, the parties
are unable to reach an agreement, any party may
request the state employment relations board to
intervene. The request shall set forth the names
and addresses of the parties, the issues involved,
and, if applicable, the expiration date of any
agreement.
The board shall intervene and investigate the
dispute to determine whether the parties have engaged in collective bargaining.
If an impasse exists or forty-five days before
the expiration date of the collective bargaining
agreement if one exists, the board shall appoint a

App. 126
mediator to assist the parties in the collective bargaining process.
(3) Any time after the appointment of a mediator, either party may request the appointment of
a fact-finding panel. Within fifteen days after receipt of a request for a fact-finding panel, the
board shall appoint a fact-finding panel of not
more than three members who have been selected
by the parties in accordance with rules established by the board, from a list of qualified persons
maintained by the board.
(a) The fact-finding panel shall, in accordance with rules and procedures established by the board that include the regulation
of costs and expenses of fact-finding, gather
facts and make recommendations for the resolution of the matter. The board shall by its
rules require each party to specify in writing
the unresolved issues and its position on each
issue to the fact-finding panel. The fact-finding
panel shall make final recommendations as to
all the unresolved issues.
(b) The board may continue mediation,
order the parties to engage in collective bargaining until the expiration date of the agreement, or both.
(4)
ing:

The following guidelines apply to fact-find-

App. 127
(a) The fact-finding panel may establish
times and place of hearings which shall be,
where feasible, in the jurisdiction of the state.
(b) The fact-finding panel shall conduct
the hearing pursuant to rules established by
the board.
(c)
Upon request of the fact-finding
panel, the board shall issue subpoenas for
hearings conducted by the panel.
(d) The fact-finding panel may administer oaths.
(e)
The board shall prescribe guidelines
for the fact-finding panel to follow in making
findings. In making its recommendations, the
fact-finding panel shall take into consideration
the factors listed in divisions (G)(7)(a) to (f) of
this section.
(f)
The fact-finding panel may attempt
mediation at any time during the fact-finding
process. From the time of appointment until
the fact-finding panel makes a final recommendation, it shall not discuss the recommendations for settlement of the dispute with parties other than the direct parties to the dispute.
(5)
The fact-finding panel, acting by a majority of its members, shall transmit its findings of fact
and recommendations on the unresolved issues to the
public employer and employee organization involved
and to the board no later than fourteen days after the

App. 128
appointment of the fact-finding panel, unless the parties mutually agree to an extension. The parties shall
share the cost of the fact-finding panel in a manner
agreed to by the parties.
(6)
(a) Not later than seven days after the
findings and recommendations are sent, the
legislative body, by a three-fifths vote of its total membership, and in the case of the public
employee organization, the membership, by a
three-fifths vote of the total membership, may
reject the recommendations; if neither rejects
the recommendations, the recommendations
shall be deemed agreed upon as the final resolution of the issues submitted and a collective
bargaining agreement shall be executed between the parties, including the fact-finding
panel’s recommendations, except as otherwise
modified by the parties by mutual agreement.
If either the legislative body or the public employee organization rejects the recommendations, the board shall publicize the findings of
fact and recommendations of the fact-finding
panel. The board shall adopt rules governing
the procedures and methods for public employees to vote on the recommendations of the factfinding panel.
(b) As used in division (C)(6)(a) of this
section, “legislative body” means the controlling board when the state or any of its agencies, authorities, commissions, boards, or other

App. 129
branch of public employment is party to the
fact-finding process.
(D)
If the parties are unable to reach agreement within seven days after the publication of findings and recommendations from the fact-finding
panel or the collective bargaining agreement, if one
exists, has expired, then the:
(1) Public employees, who are members of a
police or fire department, members of the state
highway patrol, deputy sheriffs, dispatchers employed by a police, fire, or sheriff’s department or
the state highway patrol or civilian dispatchers
employed by a public employer other than a police,
fire, or sheriff’s department to dispatch police,
fire, sheriff’s department, or emergency medical
or rescue personnel and units, an exclusive
nurse’s unit, employees of the state school for the
deaf or the state school for the blind, employees of
any public employee retirement system, corrections officers, guards at penal or mental institutions, special police officers appointed in accordance with sections 5119.08 and 5123.13 of the Revised Code, psychiatric attendants employed at
mental health forensic facilities, youth leaders
employed at juvenile correctional facilities, or
members of a law enforcement security force that
is established and maintained exclusively by a
board of county commissioners and whose members are employed by that board, shall submit the
matter to a final offer settlement procedure pur-

App. 130
suant to a board order issued forthwith to the parties to settle by a conciliator selected by the parties. The parties shall request from the board a
list of five qualified conciliators and the parties
shall select a single conciliator from the list by alternate striking of names. If the parties cannot
agree upon a conciliator within five days after the
board order, the board shall on the sixth day after
its order appoint a conciliator from a list of qualified persons maintained by the board or shall request a list of qualified conciliators from the
American arbitration association and appoint
therefrom.
(2) Public employees other than those listed in
division (D)(1) of this section have the right to
strike under Chapter 4117. of the Revised Code
provided that the employee organization representing the employees has given a ten-day prior
written notice of an intent to strike to the public
employer and to the board, and further provided
that the strike is for full, consecutive work days
and the beginning date of the strike is at least ten
work days after the ending date of the most recent
prior strike involving the same bargaining unit;
however, the board, at its discretion, may attempt
mediation at any time.
(E)
Nothing in this section shall be construed
to prohibit the parties, at any time, from voluntarily
agreeing to submit any or all of the issues in dispute
to any other alternative dispute settlement proce-

App. 131
dure. An agreement or statutory requirement to arbitrate or to settle a dispute pursuant to a final offer
settlement procedure and the award issued in accordance with the agreement or statutory requirement is
enforceable in the same manner as specified in division (B) of section 4117.09 of the Revised Code.
(F)
Nothing in this section shall be construed
to prohibit a party from seeking enforcement of a collective bargaining agreement or a conciliator’s award
as specified in division (B) of section 4117.09 of the
Revised Code.
(G)
The following guidelines apply to final offer settlement proceedings under division (D)(1) of
this section:
(1) The parties shall submit to final offer settlement those issues that are subject to collective
bargaining as provided by section 4117.08 of the
Revised Code and upon which the parties have not
reached agreement and other matters mutually
agreed to by the public employer and the exclusive
representative; except that the conciliator may attempt mediation at any time.
(2) The conciliator shall hold a hearing within
thirty days of the board’s order to submit to a final
offer settlement procedure, or as soon thereafter
as is practicable.
(3) The conciliator shall conduct the hearing
pursuant to rules developed by the board. The
conciliator shall establish the hearing time and
place, but it shall be, where feasible, within the

App. 132
jurisdiction of the state. Not later than five calendar days before the hearing, each of the parties
shall submit to the conciliator, to the opposing
party, and to the board, a written report summarizing the unresolved issues, the party’s final offer
as to the issues, and the rationale for that position.
(4) Upon the request by the conciliator, the
board shall issue subpoenas for the hearing.
(5) The conciliator may administer oaths.
(6) The conciliator shall hear testimony from
the parties and provide for a written record to be
made of all statements at the hearing. The board
shall submit for inclusion in the record and for
consideration by the conciliator the written report
and recommendation of the fact-finders.
(7) After hearing, the conciliator shall resolve
the dispute between the parties by selecting, on
an issue-by-issue basis, from between each of the
party’s final settlement offers, taking into consideration the following:
(a) Past collectively bargained agreements, if any, between the parties;
(b) Comparison of the issues submitted
to final offer settlement relative to the employees in the bargaining unit involved with those
issues related to other public and private employees doing comparable work, giving consideration to factors peculiar to the area and classification involved;

App. 133
(c)
The interests and welfare of the public, the ability of the public employer to finance
and administer the issues proposed, and the
effect of the adjustments on the normal standard of public service;
(d)
ployer;
(e)

The lawful authority of the public emThe stipulations of the parties;

(f)
Such other factors, not confined to
those listed in this section, which are normally
or traditionally taken into consideration in the
determination of the issues submitted to final
offer settlement through voluntary collective
bargaining, mediation, fact-finding, or other
impasse resolution procedures in the public
service or in private employment.
(8) Final offer settlement awards made under
Chapter 4117. of the Revised Code are subject to
Chapter 2711. of the Revised Code.
(9) If more than one conciliator is used, the determination must be by majority vote.
(10) The conciliator shall make written findings of fact and promulgate a written opinion and
order upon the issues presented to the conciliator,
and upon the record made before the conciliator
and shall mail or otherwise deliver a true copy
thereof to the parties and the board.
(11) Increases in rates of compensation and
other matters with cost implications awarded by

App. 134
the conciliator may be effective only at the start of
the fiscal year next commencing after the date of
the final offer settlement award; provided that if
a new fiscal year has commenced since the issuance of the board order to submit to a final offer
settlement procedure, the awarded increases may
be retroactive to the commencement of the new
fiscal year. The parties may, at any time, amend
or modify a conciliator’s award or order by mutual
agreement.
(12) The parties shall bear equally the cost of
the final offer settlement procedure.
(13) Conciliators appointed pursuant to this
section shall be residents of the state.
(H)
All final offer settlement awards and orders of the conciliator made pursuant to Chapter
4117. of the Revised Code are subject to review by the
court of common pleas having jurisdiction over the
public employer as provided in Chapter 2711. of the
Revised Code. If the public employer is located in
more than one court of common pleas district, the
court of common pleas in which the principal office of
the chief executive is located has jurisdiction.
(I)
The issuance of a final offer settlement
award constitutes a binding mandate to the public
employer and the exclusive representative to take
whatever actions are necessary to implement the
award.

App. 135
Agreement Between The Marietta Board of
Education and the Marietta Education
Association (2018) [Excerpts]
Section 1.01
The Marietta Board of Education, hereinafter referred to as the “Board,” recognizes Marietta Education Association, OEA/NEA, hereinafter referred to
as the “Association,” as the sole and exclusive bargaining agent for the members of the bargaining unit.
The bargaining unit shall consist of all full and regular part-time certificated personnel employed under
contract, including classroom teachers, special education teachers, psychologists, guidance counselors,
librarians, school nurses, head teacher(s), attendance
officer, resource teachers, and full-time substitutes
employed sixty-one (61) or more consecutive days in
the same position in a school year. The Superintendent, principals, assistant principals, other administrators employed under Section 3319.02 of the Ohio
Revised Code who spend more than 50% of their time
in that capacity, athletic director, casual substitutes,
tutors, interns, treasurer, non-certificated personnel
and any other confidential, supervisory and management-level employees as defined in Section 4117.01
of the Ohio Revised Code are excluded from the bargaining unit.

App. 136
Section 2.05
The Board and Association agree to negotiate concerning wages, hours, terms and conditions of employment and the continuation, modification, or deletion of an existing provision of this Agreement.
Section 3.01
Except as expressly agreed otherwise in this collective bargaining agreement, the Board hereby retains and reserves all rights and responsibilities conferred upon and invested in it and/or the Superintendent by the laws and Constitution of the State of
Ohio, and of the United States to: determine matters
of inherent managerial policy which include, but are
not limited to areas of discretion or policy as the functions and programs of the Board, standards of services, its overall budget, utilization of technology and
organization structure; direct, supervise evaluate or
hire employees; maintain and improve the efficiency
and effectiveness of school operations; determine the
overall methods, process, means or personnel by
which school operations are to be conducted; suspend,
discipline, demote or discharge for just cause or lay
off, transfer, assign, schedule, promote or retain employees; determine the adequacy of the work force;
determine the overall mission of the school district as
an educational unit; effectively manage the work
force; take actions to carry out the overall mission of
the school district. However, all matters pertaining
to wages, hours, terms and conditions of employment,
and the continuation, modification or deletion of an
existing provision of this Agreement are subject to

App. 137
collective bargaining between the Board and Association.
Article V—Grievance Procedure
Section 5.01 Definitions
5.011 “Administrator” shall mean a person
employed by the Board under Section 3319.02 of the
Ohio Revised Code who is excluded from the
bargaining unit as identified in Article I.
5.012 “Days” shall mean scheduled bargaining
unit member work days exclusive of Saturdays,
Sundays, vacation periods and holidays during the
regular school year. During a summer recess, “days”
shall mean weekdays exclusive of Saturdays,
Sundays and holidays.
5.013 “Grievance” shall mean a claim that there
has been a violation, misinterpretation or
misapplication of this Agreement.
5.014 “Grievant” shall mean member(s) of the
bargaining unit initiating a grievance. The
Association may process grievances signed by more
than one bargaining unit member as group
grievances. Final disposition of such group
grievances shall apply to all bargaining unit
members similarly affected, even if such persons did
not sign the grievances.
5.015 “Immediate Supervisor” shall mean that
administrator having immediate supervisory
responsibility over the grievant. In the case of a
traveling teacher, immediate supervisor shall mean

App. 138
the principal of the building in which the grievance
arose.
5.016 “Appropriate Supervisor” will be the lowest
level supervisor with the authority to resolve the
grievance.
5.02 Rights of the Grievant and the Association
5.021 The Board shall provide due process to all
bargaining unit members in accordance with the
Grievance Procedure of this Agreement
5.022 A grievant may at his/her sole discretion be
represented by the Association at each step of the
grievance procedure.
5.023 The purpose of these procedures is to secure,
at the lowest level administrator having authority to
resolve the grievance, equitable solutions to
grievances.
5.024 Grievances shall be processed in accordance
with the time lines set forth.
5.025 A bargaining unit member may have
grievances adjusted without intervention of the
Association, as long as the adjustment is consistent
with the terms of this Agreement. The Association
shall be permitted to have a representative present
at the adjustment of a grievance and shall receive a
written copy of the decision whenever Association
representation was not required.
5.026 No bargaining unit member can be
represented by any employee organization other than

App. 139
the Association in any grievance initiated under this
contract.
5.027 The grievant may withdraw his/her
grievance at any level, but that grievance may not be
refiled thereafter.
5.028 No records, documents or communications
concerning a grievance shall be provided to the public
without written notice to the grievant of the
requesting person’s name, if known, documents
provided and the date of the request. All parties agree
that grievances will be kept confidential to the extent
permitted by state law.
5.029 Any hearing required by this procedure may
be waived as to a specific grievance by mutual
written agreement of the parties. The grievant shall
be given twenty-four (24) hours notice of hearings.
5.030 The Board and Association agree that the
grievance procedure shall be the sole and exclusive
remedy for the Association and bargaining unit
members concerning any alleged violation of any
provision of this Agreement, including non-renewal
of probationary and auxiliary service contracts.
5.03 Time Limits
5.031 All grievances shall be submitted on
authorized grievance forms only. Such forms for
processing grievances shall be made available
through the administrative offices in each building,
the central administration office, and designated
officials of the Association including Building

App. 140
Representatives and members of the Association
Grievance Committee.
5.032 The number of days indicated at each step
in the procedure shall be the maximum unless
mutually extended in writing by the parties.
5.033 If the grievant does not present a grievance
at step one within fifteen (15) days of the act or
condition on which the grievance is based or does not
advance the grievance to the next step of the
procedure within the specified time limit, the
grievance shall be considered waived.
5.034 An administrator’s failure at any step of this
procedure to communicate his/her written decision on
a grievance within the specified time limit entitles
the grievant to appeal to the next level.
5.035 All notices of hearings, dispositions of
grievances, written grievances and appeals shall be
in writing and hand delivered or mailed by certified
mail, return receipt requested.
5.036 Grievance hearings at all levels shall be at
a time and place which will afford a reasonable
opportunity for all persons involved to attend, but not
during regularly scheduled school hours whenever
possible. If a grievance is processed during the
grievant’s summer recess, the hearing shall take
place between 9:00 a.m. and 4:00 p.m.
5.037 When a Step III hearing cannot be
scheduled outside the regular work day, adequate
released time with full pay and a substitute shall be
provided for the grievant, the Association

App. 141
representative chosen by the grievant to represent
him/her in the hearings, and a maximum of two (2)
witnesses who must be present to give testimony.
Other bargaining unit witnesses shall be permitted
to be released without pay for the time needed to
testify. The Association shall give the Board at least
five (5) days advance notice of those bargaining unit
members who are requesting to be released.
Witnesses shall only be released if qualified
substitutes are available.
5.04 Grievance Procedure
5.041 Informal Procedure: A member of the
bargaining unit with a grievance shall first discuss
the grievance with his/her immediate supervisor to
attempt to resolve the matter informally.
5.042 Formal Procedure:
Step I. If the grievance is not resolved within five
(5) days of the informal step, it may be pursued
further by submitting a completed Grievance Report
Form, Step I, in triplicate. Copies of this form shall
be submitted by the grievant to the appropriate
supervisor.
Within five (5) days of the receipt of the Grievance
Report Form, the appropriate supervisor shall meet
with the grievant. The appropriate supervisor shall
write a disposition of the grievance within five (5)
days after such meeting by completing Step I of the
grievance Report Form and returning a copy to the
grievant and the Superintendent.

App. 142
Step II. If the grievant is not satisfied with the
disposition of the grievance in Step I, the grievant
shall, within five (5) days of such disposition,
complete Grievance Report Form, Step II, and submit
same to the Superintendent or his/her designee, who
shall within five (5) days meet with the grievant. In
the event that the appropriate supervisor in Step I is
the Superintendent, and the grievant is not satisfied
with the disposition of the grievance in Step I, the
grievance shall proceed to Step III. Within five (5)
days of this meeting, the Superintendent or his/her
designee shall write his/her disposition of the
grievance, by completing his/her portion of the form,
forwarding a copy to the grievant, the Association
and the immediate supervisor.
Step III. If both the Association and grievant are
not satisfied with the disposition of the grievance at
Step II, the grievant may request a hearing before an
arbitrator by completing Grievance Report Form,
Step III. The grievant’s request for arbitration shall
be made within five (5) days to AAA following either
the receipt of the disposition of grievance or the lapse
of twenty (20) days following the grievant’s
submission of the Grievance Report Form to the
Superintendent under Step II, whichever occurs first.
The grievant’s request for arbitration shall be sent by
certified mail with return receipt requested to the
Superintendent. The grievant or his/her designated
representative shall petition the American
Arbitration Association (AAA) to provide both parties
with a list of nine (9) names from which an arbitrator
will be selected in accordance with the rules of the

App. 143
AAA. If an arbitrator is not selected from the first list,
the parties will obtain additional lists from the AAA
until an arbitrator is selected.
Once the arbitrator has been selected, he/she shall
conduct a hearing on the grievance in accordance
with the rules and regulations of the AAA. The
arbitrator shall hold the necessary hearing promptly
and issue the decision within such time as may be
agreed upon. The decision shall be in writing and a
copy sent to all parties present at the hearing. The
decision of the arbitrator shall be final and binding
on the Board, the Association and the grievant.
The arbitrator shall not have the authority to add
to, subtract from, modify, change or alter any of the
provisions of this collective bargaining contract, nor
add to, detract from or modify the language therein
in arriving at his/her decision concerning any issue
presented that is proper within the limitations
expressed herein. The arbitrator shall confine
himself/herself to the issue(s) submitted for
arbitration and shall have no authority to decide any
other issue(s) not so submitted to him/her or to
submit observations or declarations are not directly
essential in reaching his/her decision.
The arbitrator shall in no way interfere with
applicable law, and rules and regulations having the
force and effect of law, nor render a decision which
conflicts with Federal or State law.
The costs of the arbitrator shall be borne equally.
The arbitrator’s decision, if within the limitations of

App. 144
his/her authority, may only be appealed in
accordance with Chapter 2711 of the Ohio Revised
Code.
Section 12.01
The following committees shall be appointed by
the Association and the
Superintendent as needed:
12.011: Sabbatical Committee
12.012: Student Growth Measures Committee
12.013: Calendar Committee
12.014: Student Learning Objectives (SLO) Review Team
12.015: Teacher Evaluation Handbook Committee
12.016: Other Committees shall be appointed in
the same manner as needed.
Section 14.01
The Board is required by law to adopt and implement a standards-based teacher evaluation policy
which conforms to the framework for the evaluation
of teachers developed by the State Board of Education. The evaluation of teachers is governed by this
board policy. Ohio law states that these legal requirements are not subject to collective bargaining; however, the Board must consult with teachers prior to
adopting this policy. (Ohio Revised Code Section
3319.111.)

App. 145
The provisions of this Agreement relating to bargaining unit member evaluation shall be subject to
the grievance procedure, except the content of the
evaluation. Members of the bargaining unit to whom
ORC 3319.111 applies shall be evaluated in compliance with the laws and the standards-based Board
policy for teacher evaluation, which shall be based
upon the Ohio Department of Education’s Ohio
Teacher Evaluation System (OTES), including the
prescribed forms, as may be amended from time to
time in consultation with the OTES Task Force. Procedures, policies and forms included in the Teacher
Evaluation Handbook are an extension of this contract and are to be followed accordingly.
Section 14.061
l. The committee shall be comprised of 5 association members appointed by the association president,
and 5 administrators representing all levels, appointed by the superintendent, and the superintendent or his/her designee.
2. Committee members shall be representative of
elementary, middle school, secondary, and specialty
areas (e.g., music, art, special education) and programs (e.g., career tech) within the district.
Section 14.062
1. The committee shall be responsible for jointly
developing, reviewing, and recommending the policy,
procedures, and processes, including the evaluation
instrument, for teacher evaluation.

App. 146
2. The board and the association shall bargain
during regular contract negotiations all elements of
the teacher evaluation procedure that are not expressly prohibited subjects of bargaining, and these
negotiations shall be satisfactorily completed prior to
the implementation of the evaluation procedure or
prior to any modification or amendment of same. Any
agreement that is achieved through said negotiations
shall be subject to ratification by both parties. This
provision shall not prohibit the Board from implementing any aspect of the evaluation procedure required by law.
3. If either party wishes to consider any change or
revision to the evaluation procedure or process, including the evaluation instrument, during the term
of this agreement, it shall discuss the matter with the
committee. If the discussion results in a recommendation by the committee to change or revise the evaluation procedure or process, including the evaluation
instrument or Evaluation Handbook, during the term
of the agreement, then said recommendation shall be
subject to ratification by the board and the association. The current version of the Evaluation Handbook
will be implemented and modified as needed each
year.
4. In the event of legislative action by the Ohio
General Assembly that impacts in any way on this
topic, the parties to this agreement shall discuss this
topic to determine whether adjustments are appropriate during the term of this agreement. The impli-

App. 147
cations of changes made to the Ohio Revised Code regarding evaluation may be bargained without opening the entire negotiated agreement.
Section 14.071
Committee Composition
1. The committee shall be comprised of 5 association members appointed by the association president,
and 5 administrators representing all levels, appointed by the superintendent, and the superintendent or his/her designee.
2. The members of the committee shall be representative of the elementary school, the middle school,
the secondary school, and specialty areas within the
district.
The terms of association members on the committee shall be for a period of no less than two (2) years
unless a member leaves the district, retires, requests
that the association removes him/her from the committee, is no longer able to serve due to unforeseen
circumstances, or is removed by action of the association.
Section 23.02
The Board agrees and understands that each
member of the bargaining unit shall have the opportunity to be accompanied and/or represented by an
association-approved representative of his/her choice
at any reprimand meeting. The bargaining unit
member shall be granted two (2) workdays to secure
the representative of his/her choice.

App. 148
Section 25.02
Association Notification
25.021 When the Superintendent intends to recommend a reduction in force to the Board of Education, he/she shall notify the Association thirty
(30) days in advance of the Board meeting at which
such recommendation is made.
The notification shall include the reasons(s) for
the RIF; the number of position(s) within the area(s)
of certification affected; the individuals affected, if
known; the date of the Board’s meeting at which the
RIF will be considered, and the effective date of the
RIF.
25.022 Superintendent and/or designee shall meet
and review the reasons for the proposed RIF and its
impact if requested by the Association within ten (10)
days of the receipt of the notification. Within five (5)
days of the request by the Association, a meeting
shall be set between the Board’s representatives and
the Association’s representatives, unless such a date
is mutually extended.
25.023 If a bargaining unit member is threatened
by layoff due to a RIF, and if said bargaining unit
member does hold another area of certification, that
bargaining unit member may elect to displace a member holding the lowest position on the district seniority list for which the bargaining unit member is certificated provided the employees have comparable
evaluations.

App. 149
Section 27.01
There will be no reprisals taken against any bargaining unit member by reason of his/her membership or non-membership in the Association. Furthermore, the Board authorizes the Marietta Education
Association:
27.011 To use the facilities of any building for
meetings and Association business, without fee, upon
notification to the administrator in charge of such
building. Permission to use facilities shall be given as
long as it does not interfere with any previously authorized activity in said building.
27.012 To use the inter-school mail system to distribute Association bulletins, newsletters or other
communications of a general nature.
27.013 To use a designated bulletin board in each
building for dissemination of information to members.
27.014 To allow representatives to call meetings
of Association members within the building so long
as they do not conflict with previously scheduled staff
responsibilities.
27.015 Representatives and officers of the Association shall be permitted to transact Association business on school property in non-teaching areas at nonteaching times.
27.016 None of the rights set forth above shall be
exercised in a way as to interfere with teaching duties.

App. 150
27.017 Each building will have a faculty workroom/lounge exclusive of students/children. Bargaining unit members shall have the authority to see that
this clause is followed.

